No. 19-____

IN THE

Supreme Court of the United States
_________

TAKEDA PHARMACEUTICAL COMPANY LIMITED,
TAKEDA PHARMACEUTICALS USA, INC.,
AND ELI LILLY AND COMPANY,
v.

Petitioners,

PAINTERS AND ALLIED TRADES DISTRICT
COUNCIL 82 HEALTH CARE FUND, et al.,
Respondents.
_________
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________
RANDALL L. CHRISTIAN
SUSAN E. BURNETT
BOWMAN & BROOKE LLP
2901 Via Fortuna Drive
Suite 500
Austin, TX 78746
(512) 874-3800
Counsel for Petitioner
Eli Lilly and Company

JONATHAN S. FRANKLIN
Counsel of Record
PETER B. SIEGAL
NORTON ROSE FULBRIGHT US LLP
799 9th Street NW
Washington, DC 20001
(202) 662-0466
jonathan.franklin@
nortonrosefulbright.com
DARRYL W. ANDERSON
NORTON ROSE FULBRIGHT US LLP
1301 McKinney Street
Houston, TX 77010
(713) 651-5562
Counsel for Petitioners Takeda
Pharmaceuticals Company
Limited and Takeda
Pharmaceuticals USA, Inc.

QUESTIONS PRESENTED
This petition involves a putative nationwide class
action under the Racketeer Influenced and Corrupt
Organizations Act (“RICO”), in which respondents
seek treble-damages refunds of all payments they
made for Actos, a prescription drug marketed by
petitioners. Respondents are Actos patients and a
third-party payor who allege that petitioners failed
to disclose that Actos increases the risk of bladder
cancer for a small, defined subset of patients. But
respondents make no claim that Actos was
ineffective or that they (or any patients they
reimbursed) suffered a personal injury. Rather,
respondents’ sole theory is that they would not have
paid for Actos had petitioners fully disclosed the risk.
The questions presented, each of which is the
subject of an entrenched, broadly acknowledged,
several-circuit split, are:
1. Whether the chain of causation between a
manufacturer’s allegedly false or misleading
statements or omissions and end payments for
prescription drugs is too attenuated to satisfy RICO’s
proximate cause requirement, given that every
prescription-drug payment depends on numerous
intervening factors, including a doctor’s independent
decision to prescribe.
2. Whether everyone who pays for a product with
an alleged latent risk or defect necessarily suffers
injury sufficient to confer Article III standing, even
where the product is fully consumed, provides the
bargained-for benefits, and causes no ill effects.

(i)

ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
Petitioners are Takeda Pharmaceutical Company
Limited, Takeda Pharmaceuticals USA, Inc., and Eli
Lilly and Company, defendants-appellees below.
Takeda Pharmaceutical Company Limited is a
publicly held entity traded on the Tokyo Stock
Exchange. It has no parent company and no publicly
held entity owns 10% or more of its stock.
Takeda Pharmaceuticals USA, Inc. is owned by
Takeda Pharmaceutical Company Limited, which
holds 75% of its stock, and Takeda Pharmaceuticals
International AG, which holds the remaining 25% of
its stock.
Eli Lilly and Company is publicly traded on the
New York Stock Exchange and has no parent
company, and no publicly held company owns 10% or
more of its stock.
Respondents are Painters and Allied Trades
District Council 82 Health Care Fund, Annie M.
Snyder, Rickey D. Rose, John Cardarelli, Marlyon K.
Buckner, and Sylvie Bigord, appellees below.

iii
STATEMENT OF RELATED PROCEEDINGS
There are no other proceedings in state or federal
trial or appellate courts directly related to this case
within the meaning of this Court’s Rule 14.1(b)(iii).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED .......................................i
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ................................... ii
STATEMENT OF RELATED PROCEEDINGS...... iii
TABLE OF AUTHORITIES.................................... vii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 2
STATUTORY AND CONSTITUTIONAL
PROVISIONS ........................................................ 2
INTRODUCTION ....................................................... 2
STATEMENT OF THE CASE ................................... 6
A. Proceedings In The District Court............. 6
B. Proceedings In The Court Of
Appeals ....................................................... 8
REASONS FOR GRANTING THE PETITION ...... 12
I. THERE IS A PERSISTENT AND
WIDELY ACKNOWLEDGED CIRCUIT
SPLIT ON THE FIRST QUESTION
PRESENTED ................................................. 12
A. The Second And Seventh Circuits
Would Not Have Permitted This
Case To Proceed ....................................... 13
B. The First, Third, And Ninth Circuits
Have Rejected Sidney Hillman’s and
UFCW’s Common-Sense Rule .................. 17

v
TABLE OF CONTENTS—Continued
Page
C. The Court Of Appeals Erred In
Focusing On Foreseeability Rather
Than Directness ....................................... 19
II. THERE IS AN ENTRENCHED,
ACKNOWLEDGED CIRCUIT SPLIT
ON THE SECOND QUESTION
PRESENTED ................................................. 24
A. The Decision Below Cannot Be
Reconciled With The “Benefit Of The
Bargain” Rule The Third And Fifth
Circuits Apply........................................... 24
B. The Decision Below Is Incorrect .............. 26
III. THIS CASE IS AN EXCELLENT
VEHICLE FOR ADDRESSING TWO
QUESTIONS OF EXCEPTIONAL
IMPORTANCE .............................................. 27
A. The Viability Of Refund RICO Suits
Is A Matter Of Exceptional
Importance................................................ 27
B. The Law Of RICO Proximate Cause
And Standing Are In Dire Need Of
Clarification .............................................. 31
C. This Case Is An Excellent Vehicle ........... 33
CONCLUSION ......................................................... 35
APPENDIX
Appendix A:

Opinion of the U.S. Court of
Appeals for the Ninth Circuit (Dec.
3, 2019) ............................................ 1a

vi
TABLE OF CONTENTS—Continued
Page
Appendix B:

Memorandum of the U.S. Court of
Appeals for the Ninth Circuit (Dec.
3, 2019) .......................................... 39a

Appendix C:

In Chambers Order Granting
Motion to Dismiss of the U.S.
District Court for the Central
District of California (Apr. 3,
2018) .............................................. 46a

Appendix D:

In Chambers Order Partially
Granting Motion to Dismiss of the
U.S. District Court for the Central
District of California (Feb. 1,
2018) .............................................. 56a

vii
TABLE OF AUTHORITIES
Page(s)
CASES:
Anza v. Ideal Steel Supply Corp., 547
U.S. 451 (2006)...........................................passim
Associated Gen. Contractors of Cal., Inc.
v. Cal. State Council of Carpenters, 459
U.S. 519 (1983).................................................. 23
AT&T Mobility LLC v. Concepcion, 563
U.S. 333 (2011).................................................. 29
Bridge v. Phoenix Bond & Indem. Co.,
553 U.S. 639 (2008)....................................passim
Clapper v. Amnesty Int’l USA, 568 U.S.
398 (2013) .......................................................... 33
Dist. 1199P Health & Welfare Plan v.
Janssen, L.P., 784 F. Supp. 2d 508
(D.N.J. 2011) ..................................................... 28
E. River S.S. Corp. v. Transam. Delaval,
Inc., 476 U.S. 858 (1986) .................................. 31
GlaxoSmithKline LLC v. Allied Servs.
Div. Welfare Fund, 136 S. Ct. 2409
(2016) ................................................................. 22
Health Care Serv. Corp. v. Pfizer, Inc.,
2012 WL 2505555 (E.D. Tex. Apr. 23,
2012), report and recommendation
adopted, 2012 WL 2504884 (E.D. Tex.
June 28, 2012) ................................................... 28
Hemi Grp., LLC v. City of New York, 559
U.S. 1 (2010)...............................................passim
Holmes v. Sec. Inv’r Prot. Corp., 503 U.S.
258 (1992) ...................................................passim

viii
TABLE OF AUTHORITIES—Continued
Page(s)
In re Actimmune Mktg. Litig., 614 F.
Supp. 2d 1037 (N.D. Cal. 2009), aff’d,
464 F. App’x 651 (9th Cir. 2011) ...................... 28
In re Avandia Mktg., Sales Practices &
Prod. Liab. Litig., 804 F.3d 633 (3d Cir.
2015) ...........................................................passim
In re Bextra & Celebrex Mktg. Sales
Practices and Prod. Liab. Litig., 2012
WL 3154957 (N.D. Cal. Aug. 2, 2012) .............. 28
In re Bridgestone/Firestone, Inc., Tires
Prods. Liab. Litig., 288 F.3d 1012 (7th
Cir. 2002)........................................................... 30
In re Canon Cameras Litig., 237 F.R.D.
357 (S.D.N.Y. 2006) .......................................... 26
In re Celexa & Lexapro Mktg. & Sales
Practices Litig., 65 F. Supp. 3d 283 (D.
Mass. 2014) ....................................................... 28
In re Johnson & Johnson Talcum
Powder Prods. Mktg., Sales Practices &
Liab. Litig., 903 F.3d 278 (3d Cir.
2018) ...........................................................passim
In re Neurontin Mktg. & Sales Practices
Litig., 712 F.3d 21 (1st Cir. 2013) .............passim
In re Schering Plough Corp.
Intron/Temodar Consumer Class
Action, 678 F.3d 235 (3d Cir. 2012).................. 28
In re Yasmin & Yaz (Drospirenone)
Mktg., Sales Practices & Prods. Liab.
Litig., 2010 WL 3119499 (S.D. Ill. Aug.
5, 2010) .............................................................. 28

ix
TABLE OF AUTHORITIES—Continued
Page(s)
In re Zurn Pex Plumbing Prods. Liability
Litig., 644 F.3d 604 (8th Cir. 2011)........ 5, 24, 26
Ind./Ky./Ohio Reg’l Council of
Carpenters Welfare Fund v. Cephalon,
Inc., 2014 WL 2115498 (E.D. Pa. May
21, 2014) ............................................................ 28
Ironworkers Local Union 68 v.
AstraZeneca Pharm., LP, 634 F.3d
1352 (11th Cir. 2011) .................................. 16, 28
Koronthaly v. L’Oreal USA, Inc., 374 F.
App’x 257 (3d Cir. 2010) ................................... 25
Mazza v. Am. Honda Motor Co., 666 F.3d
581 (9th Cir. 2012) ...................................... 12, 24
Nichols v. Mahoney, 608 F. Supp. 2d 526
(S.D.N.Y. 2009) ................................................. 29
Pfizer Inc. v. Kaiser Found. Health Plan,
Inc., 571 U.S. 1094 (2013) ................................ 22
Plumbers & Pipefitters Local 572 Health
& Welfare Fund v. Merck & Co., 2013
WL 1819263 (D.N.J. Apr. 29, 2013) ................. 28
Rivera v. Wyeth-Ayerst Labs., 283 F.3d
315 (5th Cir. 2002) .....................................passim
S. Ill. Laborers’ & Emp’rs Health &
Welfare Fund v. Pfizer Inc., 2009 WL
3151807 (S.D.N.Y. Sept. 30, 2009) ................... 28
Se. Laborers Health & Welfare Fund v.
Bayer Corp., 444 F. App’x 401 (11th Cir.
2011) ............................................................ 16, 28

x
TABLE OF AUTHORITIES—Continued
Page(s)
Sergeants Benevolent Ass’n Health &
Welfare Fund v. Sanofi-Aventis U.S.
LLP, 806 F.3d 71 (2d Cir. 2015) ....................... 16
Sidney Hillman Health Ctr. of Rochester
v. Abbott Labs., 873 F.3d 574 (7th Cir.
2017) ...........................................................passim
Spokeo, Inc. v. Robins, 136 S. Ct. 1540
(2016) ................................................................. 33
UFCW Local 1776 v. Eli Lilly & Co., 620
F.3d 121 (2d Cir. 2010) ..............................passim
United Food & Commercial Workers
Cent. Pa. & Reg’l Health & Welfare
Fund v. Amgen, Inc., 400 F. App’x 255
(9th Cir. 2010) ................................................... 28
STATUTES, RULES, LAWS, AND TREATIES:
U.S. Const. art. III, § 2 .......................................... 2
18 U.S.C. § 1962 .................................................... 2
18 U.S.C. § 1964(c) ................................................ 2
28 U.S.C. § 1254(1) ................................................ 2
S. Ct. Rule 12.4 ...................................................... 2
OTHER AUTHORITIES:
James Bogan III, Ninth Circuit Deepens
Circuit Split In Pharmaceutical
Industry-Specific RICO Proximate
Cause Ruling (Feb. 3, 2020),
(https://tinyurl.com/t5t8ouh) ............................ 13
A. Mitchell Polinsky & Steven Shavell,
The Uneasy Case for Product Liability,
123 Harv. L. Rev. 1437 (2010) .......................... 30

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Thomas M. Greene, A New Weapon in
Pharma Cases, 47 Trial 40 (Nov. 2011) ........... 29
Victor. E. Schwartz & Cary Silverman,
The Rise Of Empty Suit Litigation:
Where Should Tort Law Draw the Line,
80 Brook. L. Rev. 599 (2015) ............................ 29
William H. Rehnquist, Remarks of the
Chief Justice, 21 St. Mary’s L.J. 5
(1989) ................................................................. 27

IN THE

Supreme Court of the United States
_________

No. 19-____
_________
TAKEDA PHARMACEUTICAL COMPANY LIMITED,
TAKEDA PHARMACEUTICALS USA, INC.,
AND ELI LILLY AND COMPANY,
v.

Petitioners,

PAINTERS AND ALLIED TRADES DISTRICT
COUNCIL 82 HEALTH CARE FUND, et al.,
Respondents.
_________
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________
Takeda Pharmaceutical Company Limited, Takeda
Pharmaceuticals USA, Inc. (“Takeda”), and Eli Lilly
and Company (“Lilly”) respectfully petition this
Court for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Ninth
Circuit in this case.
OPINIONS BELOW
Petitioners seek review of two opinions of the Ninth
Circuit issued the same day in the same case, one of
which is reported at 943 F.3d 1243 and reproduced
at page 1a of the Appendix to this petition (“App.”),
and the other of which is unreported and reproduced

2
at App. 39a. The pertinent opinions of the United
States District Court for the Central District of
California are unreported and reproduced at App.
46a and 56a.
JURISDICTION
The judgment of the Ninth Circuit was entered on
December 3, 2019. 1 App. 2a. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
STATUTORY AND CONSTITUTIONAL
PROVISIONS
The RICO statute states, in relevant part, that
“[a]ny person injured in his business or property by
reason of a violation of [18 U.S.C. § 1962] may sue
therefor in any appropriate United States district
court and shall recover threefold the damages he
sustains and the cost of the suit, including a
reasonable attorney’s fee * * * .” 18 U.S.C. § 1964(c).
Article III, section 2 of the United States
Constitution provides, in relevant part, that “[t]he
judicial power” is limited to “cases” and
“controversies.”
INTRODUCTION
Respondents are patients and a third-party payor
(“TPP”). Doctors prescribed the patients Actos, a
diabetes drug, which the patients purchased and
used safely, effectively, and without adverse side
effects. The TPP paid for Actos prescribed to its
insureds, who likewise used the drug safely,
effectively, and without adverse side effects.
1 Because the Ninth Circuit resolved this single appeal in two

opinions issued the same day, it is unclear whether the court
issued one or two judgments. Regardless, petitioners seek
review of both Ninth Circuit decisions. See S. Ct. Rule 12.4.

3
Nevertheless, respondents sued petitioners (Takeda,
which manufactures Actos, and Lilly, which
previously co-promoted it) under RICO, seeking
three times their money back because petitioners
allegedly failed to timely disclose a risk of a side
effect the patients at issue undisputedly did not
experience. That risk was made public in an FDA
warning in 2011, and it is undisputed that in the
ensuing nine years, doctors have continued to
prescribe Actos, patients have continued to purchase
it, and TPPs—including the TPP respondent
(“Painters”)—have continued to pay for it.
This petition presents an opportunity for the Court
to resolve entrenched, acknowledged circuit splits on
two issues of exceptional importance relating to
RICO proximate cause and Article III standing. “[I]n
the RICO context,” unlike the standard tort context,
the focus of the proximate cause inquiry “is on the
directness of the relationship between the conduct
and the harm,” not “the concept of foreseeability.”
Hemi Grp., LLC v. New York, 559 U.S. 1, 12 (2010)
(plurality op.) (emphasis added). Applying that
standard in pharmaceutical refund cases like this
one, the Second and the Seventh Circuits have held
that the alleged harm (payment for the drug) is too
remote from the alleged RICO violation because
every patient’s prescription-drug purchase (and thus
every TPP’s payment) results from, among other
causes, a doctor’s independent decision to prescribe
and a pharmacy benefit manager’s independent
decision to recommend coverage. See UFCW Local
1776 v. Eli Lilly & Co., 620 F.3d 121, 126 (2d Cir.
2010); Sidney Hillman Health Ctr. of Rochester v.
Abbott Labs., 873 F.3d 574, 578 (7th Cir. 2017)
(holding “that there are so many layers, and so many

4
independent decisions, between promotion and
payment that the causal chain is too long to satisfy”
the proximate cause requirement). 2
The Ninth Circuit, acknowledging that this case is
indistinguishable from those Second and Seventh
Circuit cases, disagreed.
It concluded that the
intervening steps between alleged wrongdoing and
alleged harm are irrelevant because, no matter the
roles of independent actors in causing each plaintiff’s
claimed injury, it was “foreseeable” that the conduct
alleged would increase drug sales overall. App. 32a.
In so holding, the Ninth Circuit acknowledged a
longstanding “dispute between the Second and
Seventh Circuits and the First and Third Circuits,”
opted to join the First and the Third Circuits, and
expressly rejected the “opposite” rule of “the Second
and Seventh Circuits.” App. 31a, 33a.
The Ninth Circuit’s approach effectively replaces
RICO’s “directness” requirement with a “foreseeability” test this Court has already repudiated. That
error deepens a circuit split that has existed for
years and reflects widespread, longstanding
confusion over the basic contours of the RICO
proximate cause analysis. Moreover, the Ninth
Circuit’s approach vastly expands the original
purpose behind the RICO statute and creates broadbased liability where it would not otherwise exist.
The Court should grant certiorari to resolve the clear
division among the circuits on this question and
restore certainty to the law.
2 A pharmacy benefit manager is an entity that makes

recommendations to TPPs about which drugs to cover as part of
the TPPs’ insurance plans. See UFCW, 620 F.3d at 126 (noting
that TPPs can “modify the recommendations of their PBMs”).

5
The second question presented—whether a plaintiff
who paid for an effective medication that did not
cause any ill effect has standing to seek a full
refund—is closely related, equally important, and
also the subject of an entrenched and acknowledged
circuit split. The Third and Fifth Circuits have
correctly held that a plaintiff who uses a product
fully, safely, and effectively, and thus receives “the
benefit of her bargain,” lacks Article III standing to
sue for a full refund based on nondisclosure of a
defect that affected only others. See In re Johnson &
Johnson Talcum Powder Prods. Mktg., Sales
Practices & Liab. Litig., 903 F.3d 278, 280-81 (3d Cir.
2018); Rivera v. Wyeth-Ayerst Labs., 283 F.3d 315,
320 (5th Cir. 2002). The rule of those circuits would
have resulted in dismissal here.
Yet the Ninth Circuit, following its own established
circuit precedent, held that anyone who pays for a
product has standing to sue for a full refund merely
by alleging that the payment would not have been
made if a risk or defect had been disclosed, even if
the product was consumed completely, safely, and
effectively. App. 40a-41a n.1. That holding also
deepens an existing, acknowledged division among
the circuits on a recurring and important question of
federal law. See In re Zurn Pex Plumbing Prods.
Liability Litig., 644 F.3d 604, 623-24 (8th Cir. 2011)
(Gruender, J., dissenting) (criticizing majority for not
following Rivera); Johnson & Johnson, 903 F.3d at
295 & n.12 (Fuentes, J., dissenting) (noting split
with Ninth Circuit). And it transforms product
liability law—developed to provide a remedy for
those truly injured by defective products—into a
mechanism for providing triple-refund windfalls to
massive classes of purchasers of products that are

6
fully consumed and beneficial and caused them no
harm whatsoever.
This case presents an ideal opportunity to resolve
both circuit splits. The district court and court of
appeals emphasized the clear disagreement on the
proximate cause question, identified conflicting cases
from other circuits as directly on point, and made
clear that resolution of the split in petitioners’ favor
would be outcome-determinative on the RICO claims.
App. 30a-31a, 57a-58a. The standing question was
also addressed by the court of appeals and, if this
Court rules in petitioners’ favor, would be dispositive
of this entire case. And since the case comes to the
Court on a straightforward motion to dismiss, there
is no likelihood that a factual issue could interfere
with the proper resolution of either question. The
Court should therefore grant certiorari.
STATEMENT OF THE CASE
A. Proceedings In The District Court.
In 1999, the FDA approved Actos, whose active
ingredient is pioglitazone, for the treatment of type 2
diabetes. In 2011, the FDA issued a warning stating
that its review of a still-ongoing study suggested that
“although there was no overall increased risk of
bladder cancer with pioglitazone use, an increased
risk of bladder cancer was noted among patients
with the longest exposure to pioglitazone and in
those exposed to the highest cumulative dose of pioglitazone.” Ninth Circuit Excerpts of Record (“E.R.”)
at 46-47 (emphasis added). The FDA did not remove
Actos from the market, and, although the FDA
continues to update its warning as additional studies
are released, Actos remains on the market now.

7
In 2014, respondents filed this putative class action
in federal district court under RICO and various
state laws. The patient respondents do not allege
they ever suffered from bladder cancer or any other
personal injury or even that they were in the limited
risk category the FDA noted. App. 8a. The TPP
respondent does not allege that the petitioners made
direct misrepresentations to it about the safety of
Actos. Nor does it seek recovery for any payment
associated with any patient who suffered a personal
injury. App. 7a-9a. 3 Respondents also do not rely on
any assertion that the price of Actos was wrongfully
inflated due to the alleged nondisclosure. App. 9a
n.3 (noting that respondents expressly abandoned
any such contention on appeal).
Instead, respondents seek to recover treble
damages based on “the payments they made to
purchase Actos under the assumption that it was a
safe drug, which they allege they would not have
purchased had they known that Actos increases a
person’s risk of developing bladder cancer.” App. 9a.
They also seek to represent all patients and TPPs
“who paid or incurred costs for” Actos from the drug’s
approval through the date of the complaint, E.R. 69,
even though it is undisputed that notwithstanding
the FDA’s warning, doctors continue to prescribe
Actos, millions of patients (including many in
respondents’ proposed class) continue to purchase
and consume it, and Painters continues to pay for it.
See, e.g., Appellants’ Ninth Cir. Reply Br. 14 n.3
(noting that “Painters continues to pay for” Actos
prescriptions).
Accordingly, despite their broad
3 As the court of appeals noted, Takeda has established a

“global settlement program” for “all eligible personal injury
claimants.” App. 7a.

8
claims and class-action allegations, respondents do
not contend that a doctor aware of the bladdercancer risk would necessarily refuse to prescribe
Actos, or that a patient thus aware would necessarily
refuse to pay for or take it. See id. (arguing that
“only * * * a percentage” of Actos prescriptions were
based on alleged omissions).
Noting the conflicting First and Third Circuit
cases, the district court deemed “persuasive Judge
Easterbrook’s reasoning in his opinion for the
Seventh Circuit in a highly similar case,” “adopt[ed]
the reasoning of Judge[] * * * Easterbrook” on “the
RICO proximate causation issue,” and, “accordingly,”
dismissed the RICO claims with prejudice. App. 57a58a & n.3 (citing, inter alia, Sidney Hillman, 873
F.3d at 578 (Easterbrook, J.); In re Avandia Mktg.,
Sales Practices & Prods. Liab. Litig., 804 F.3d 633
(3d Cir. 2015); In re Neurontin Mktg. & Sales
Practices Litig., 712 F.3d 21 (1st Cir. 2013)). The
court also dismissed respondents’ state law claims on
various related grounds. App. 47a-55a.
B. Proceedings In The Court Of Appeals.
Respondents appealed, arguing that the complaint
satisfies RICO’s proximate cause requirement
because it alleges petitioners acted with “inten[t] to
increase the volume of Actos prescriptions” and with
knowledge that patients and TPPs would pay for
them.
Appellants’ Ninth Cir. Br. 39-61.
Respondents noted the district court’s “recogni[tion]
that [the] Neurontin and Avandia cases contradicted
its holding,” id. at 51, and criticized the court for
instead following the Seventh Circuit’s decision in
Sidney Hillman, which they derided as “poorly
decided,” “incorrect,” and entitled to “little
deference.” Id. at 59.

9
In response, petitioners defended the district
court’s decision on proximate cause. Takeda Ninth
Cir. Br. 8-45. 4 Petitioners also argued that dismissal
was proper on the alternative ground that
respondents lacked Article III standing because, as
the Third and Fifth Circuits have ruled, plaintiffs
who “got what they paid for * * * have suffered no
concrete injury.” Takeda Ninth Cir. Br. 45-51.
The Ninth Circuit reversed, noting that it had not
yet had occasion to address “whether patients and
TPPs suing pharmaceutical companies for concealing
an allegedly known safety risk about a drug can
satisfy RICO’s proximate cause requirement,” but
that “several of our sister circuits have addressed
th[at] question in similar factual scenarios and have
reached different results, creating an apparent intercircuit split.” App. 21a-23a. Specifically, the court
said, the Second and Seventh Circuits have deemed
plaintiffs’ payments for prescription drugs an
indirect result of alleged wrongdoing in drug
marketing, because “an individual patient’s
diagnosis, past and current medications being taken
by the patient, the physician’s own experience with
prescribing [the drug], and the physician’s
knowledge regarding * * * side effects,” among other
factors, are necessary, intervening factors with
respect to any plaintiff’s injury. App. 26a (quotation
marks and alteration omitted). The Ninth Circuit
recognized that the First and Third Circuits have
held the “opposite,” deeming the directness
requirement (and, accordingly, the proximate cause
requirement) satisfied as to every plaintiff who
4 Lilly joined in all of Takeda’s arguments. See Lilly Ninth

Cir. Br. 1.

10
claims that a generalized increase in drug purchases
was a foreseeable result of the conduct they allege.
App. 27a-30a.
In sum, the court explained, “the central dispute
between the Second and Seventh Circuits and the
First and Third Circuits” is on the purely legal
question of “whether the decisions of prescribing
physicians and pharmacy benefit managers
* * * sever the chain of proximate cause.” App. 31a.
Moreover, the Ninth Circuit said, any “minor factual
and procedural differences” that might exist among
those courts’ cases would “not help” to reconcile that
“central dispute.” Id.
In choosing between those dueling appellate
decisions, the Ninth Circuit also sought guidance
from this Court’s decision in Bridge v. Phoenix Bond
& Indem. Co., 553 U.S. 639 (2008). See, e.g., App.
15a-16a. In that case, a RICO defendant who
allegedly defrauded an auctioneer to gain an
advantage over competing bidders argued that the
bidders were categorically barred from suing without
allegations that they, as opposed to the auctioneer,
had relied on the defendant’s fraudulent statements.
553 U.S. at 642-45. The Court granted certiorari
solely “to resolve * * * whether first-party reliance is
an element of a civil RICO claim predicated on mail
fraud.” Id. at 646, 661. In holding that it is not, the
Court rejected an argument that first-party reliance
was necessary to show directness.
In a brief
discussion far afield from the question presented, the
Court noted that because the competing bidders’
injury was a natural consequence of the alleged
fraud, and because “there [we]re no independent
factors that account[ed] for” it, the injury was direct.
Id. at 658.

11
Relying on the “Bridge precedent alone,” App. 16a,
the Ninth Circuit concluded that “the First and
Third Circuits have it right.” App. 31a-32a. Despite
acknowledging that prescribing physicians “serve as
intermediaries” between manufacturers and drug
purchasers, the court reasoned that such physicians
“do not constitute an intervening cause to cut off the
chain of proximate cause,” because “it was perfectly
foreseeable that physicians who prescribed Actos
would play a causative role in” increasing revenues
therefrom. App. 32a (emphasis omitted). The court
further noted that both the role of physicians as
arbiters and the fact that patients and TPPs would
ultimately pay for drugs would have been foreseeable
to manufacturers engaged in the alleged wrongdoing.
Id. Equating the directness requirement with a
foreseeability test, the Ninth Circuit held that
RICO’s proximate cause requirement was satisfied.
App. 16a-32a; see App. 33 (opining that if it were “to
hold the opposite[,] as the Second and Seventh
Circuits have held, drug manufacturers would be
insulated from liability for their fraudulent
marketing schemes, as they could continuously hide
behind prescribing physicians and pharmacy benefit
managers”).
The Ninth Circuit also briefly invoked two other
points it thought supported that result. First, the
court noted its conclusion that the three-factor
inquiry for RICO proximate cause set forth in
Holmes v. Securities Investor Protection Corp., 503
U.S. 258, 269-70 (1992), weighed in favor of its
holding. And second, pointing to this Court’s observation that the proximate cause requirement “exists
to ‘limit a person’s responsibility for the consequences of that person’s own acts,’” App. 33a (citing

12
Holmes, 503 U.S. at 268), the court concluded that as
long as respondents’ injuries were but-for
“consequences” of petitioners’ “own acts and omissions,” proximate cause was necessarily present. Id.
The Ninth Circuit addressed petitioners’ Article III
standing argument in a separate, unpublished
memorandum reversing in part and affirming in part
the dismissal of respondents’ state law claims.
There, the court of appeals noted that in a prior
published decision “in the consumer fraud context,”
it had held that injury-in-fact necessarily exists
“where plaintiffs contend that they bought a product
‘when they otherwise would not have done so,
because Defendants made deceptive claims and
failed to disclose known risks.’” App. 40a-41a n.1
(quoting Mazza v. Am. Honda Motor Co., 666 F.3d
581, 595 (9th Cir. 2012)). The court of appeals also
noted that in this case, “Plaintiffs alleged that they
purchased Actos, which they would not have done
absent Defendants’ fraudulent scheme to conceal
Actos’s risk of bladder cancer.” Id. Based on that
allegation alone, the court of appeals concluded that
Mazza governed and, accordingly, that respondents
“alleged an injury in fact sufficient to support Article
III standing.” Id.
REASONS FOR GRANTING THE PETITION
I. THERE IS A PERSISTENT AND WIDELY
ACKNOWLEDGED CIRCUIT SPLIT ON
THE FIRST QUESTION PRESENTED.
The Ninth Circuit acknowledged that its proximate
cause ruling followed holdings of the First and Third
Circuits but was the “opposite” of at least two other
circuits’ holdings in materially indistinguishable

13
cases. App. 33a. 5 That intractable conflict among
the circuits calls out for this Court’s resolution.
A. The Second And Seventh Circuits Would
Not Have Permitted This Case To
Proceed.
In Sidney Hillman, the Seventh Circuit addressed
RICO claims brought by TPPs who had provided
coverage for patients’ purchases of a prescription
drug. 873 F.3d at 575. The plaintiffs sought trebledamages refunds of their payments on the ground
that the manufacturer had made fraudulent
statements to doctors in promoting the drug. Id.
The district court dismissed, concluding that “tracing
loss through the steps between promotion and
payment would be too complex.” Id. at 576-77.
The Seventh Circuit affirmed, identifying three
reasons why the plaintiffs suing for “wrongs
committed while marketing pharmaceuticals” could
not establish direct injury even if the harms they
alleged were foreseeable. First, the court held, some
of the prescriptions might have been “beneficial to
patients,” such that any damages calculation would
require the court to determine whether the cost of
any wrongfully written prescriptions was offset by
the drugs’ benefits. 873 F.3d at 577. Second, it
reasoned, some prescriptions would have been
written notwithstanding the alleged wrongdoing,
such that “[t]o calculate damages it would be
necessary
to
determine
the
volume
of
* * * prescriptions that would have occurred in the
5 See also James Bogan III, Ninth Circuit Deepens Circuit

Split In Pharmaceutical Industry-Specific RICO Proximate
Cause Ruling (Feb. 3, 2020) (https://tinyurl.com/t5t8ouh)
(acknowledging circuit split).

14
absence of [the] unlawful activity,” which might “not
be an easy task.” Id. And third, the court held,
tracing injury would necessarily require a showing
that each physician who wrote an allegedly wrongful
prescription did so in reliance on the wrongful
conduct alleged, such that “[d]isentangling the
effects of the” wrongful conduct “from the many other
influences on physicians’ prescribing practices would
be difficult—much more difficult than following the
one-step causal link in Bridge.” Id. For those reasons and others, the court held, Bridge’s brief directness discussion was inapplicable. See id. at 576. 6
The court next rejected plaintiffs’ effort to sidestep
those issues of proximate causation “by using a
regression analysis.” 873 F.3d at 577. Among other
problems, the court noted, a statistical showing that
the alleged wrongdoing was a but-for cause of an
increase in the number of prescriptions “would not
address” some of the issues with proximate cause,
including “what to do about patients whose * * * use
of [the drug] made them healthier.” Id. In sum, the
court said, “[t]he causal chain” in a TPP suit against
a drug manufacturer “is longer than” causal chains
this Court has already “deemed too long.” Id. at 578.
In so concluding, the Seventh Circuit noted that
“other courts of appeals have considered the extent
to which [TPPs] can recover under RICO for wrongs
6 Although Sidney Hillman involved only TPPs, id. at 575,

essentially the same reasoning applies to patients. No harm to
a particular patient can occur without, inter alia, a doctor’s
decision to prescribe the medication, a pharmacy benefit
manager’s decision to include it on a formulary and a TPP’s
decision to cover it, and external circumstances (such as the
availability and a doctor’s prescribing of safer, cheaper, equally
effective alternatives) that would have made refusing the
medication a viable option if a full disclosure had been made.

15
committed while marketing pharmaceuticals,” and
explained that two Second Circuit cases “hold[ing]
that there are so many layers, and so many
independent decisions, between promotion and
payment that the causal chain is too long to satisfy
the Supreme Court’s requirements” are the cases
that “ha[ve] this right.” Id.
The Ninth Circuit’s decision in this case also
conflicts with those Second Circuit cases. The earlier
one involved putative classes of patients and TPPs
seeking, inter alia, treble-damages refunds of
payments made for prescriptions that would
allegedly not have been issued but for alleged
misrepresentations by the manufacturer. UFCW,
620 F.3d at 123-24. In finding no proximate cause,
the Second Circuit noted that any “theory of liability”
that would tie a particular drug purchase to conduct
in marketing necessarily “rests on the independent
actions of third and even fourth parties.” Id. at 134
(quoting Hemi Grp., 559 U.S. at 15). Specifically, the
court explained, “TPPs typically pay for a prescribed
medication only if the drug is authorized under their
formulary, a list of medications approved for
payment” and “usually managed by a Pharmacy
Benefit Manager (‘PBM’).” Id. at 126. TPPs “rarely
modify the recommendations of their PBMs,” and,
“[o]n the rare occasions when” they do, they do so in
consultation with the PBMs. Id. Moreover, the court
noted, in the pharmaceutical context any
“negotiations over price * * * do not intersect with
the therapeutic choice of what drug a patient should
take, which is a decision made by a physician with
only minimal input by her patient or the TPP.” Id.
And “physicians generally do not take the price of a
drug into account when deciding among treatment

16
options, and often do not even know the price of the
drugs they prescribe.” Id. at 126-27.
Given this complexity, the court determined that a
drug purchaser hoping to show proximate cause
would have to demonstrate, among other things, the
“degree[]” to which an “individual physician[]
prescribing [the drug] * * * relied on” the alleged
misstatement or omission and that a prescription
written in such reliance “actually caused loss, given
the likelihood of substitute prescriptions for other
drugs.” 620 F.3d at 136. The court held that no such
proximate cause showing could be made. Id. at 134,
136. The Second Circuit followed that decision in the
other case the Seventh Circuit referred to, Sergeants
Benevolent Association Health & Welfare Fund v.
Sanofi-Aventis U.S. LLP, 806 F.3d 71, 74-75, 90-91
(2d Cir. 2015), where it held that a plaintiff’s RICO
claims involving allegedly fraudulent pharmaceutical
marketing were foreclosed by UFCW’s holding on
proximate cause. Cf. Ironworkers Local Union 68 v.
AstraZeneca Pharm., LP, 634 F.3d 1352, 1370 (11th
Cir. 2011) (Martin, J., concurring) (“As the Second
Circuit explained in [UFCW], the independent
decisions of the physicians and other intermediaries
involved in [a drug’s] allegedly increased usage and
pricing eviscerates the chain of causation necessary
to demonstrate a RICO violation.”). 7

7 The Eleventh Circuit has found proximate cause lacking in

a similar factual context. See Se. Laborers Health & Welfare
Fund v. Bayer Corp., 444 F. App’x 401, 409-10 (11th Cir. 2011)
(TPP could not show proximate cause without allegation that
disclosure would have caused it to cease reimbursing for drug).

17
B. The First, Third, And Ninth Circuits
Have Rejected Sidney Hillman’s and
UFCW’s Common-Sense Rule.
As the Ninth Circuit repeatedly acknowledged, see,
e.g., App. 30a-31a, decisions of the First and Third
Circuits, as well as the decision below, conflict with
the Second and Seventh Circuit decisions discussed
above.
In Neurontin, a jury awarded a TPP damages for
payments it incurred for prescriptions induced by a
drug manufacturer’s fraud on physicians. 712 F.3d
at 25-26. “Unlike the Second and Seventh Circuits,”
see App. 27a, the First Circuit held that the causal
chain between the manufacturer’s wrongdoing and
the purchaser’s injury was “anything but
attenuated.” 712 F.3d at 38. The court rejected as
irrelevant to proximate cause the important role
doctors play in deciding which medications their
patients are prescribed, reasoning instead that the
issue went only to the “total number of prescriptions
that were attributable to” the fraudulent scheme and
was therefore exclusively “a damages question.” Id.
at 39. Dismissing that concern, the court concluded
that such causation was present solely because, in
engaging in its fraudulent actions, the manufacturer
“always kn[ew] that, because of the structure of the
American health care system,” any scheme to
increase drug sales would result in increased end
payments. Id. at 38-39.
The Third Circuit followed suit in Avandia, a
putative RICO class action brought by TPPs alleging
that a diabetes drug manufacturer misrepresented
heart-related safety risks. See 804 F.3d at 634-36.
Like the First Circuit, the Third Circuit rejected any
argument that “the presence of intermediaries,

18
doctors and patients, destroys proximate cause
because they were the ones who ultimately decided
whether to rely on [the defendant’s] misrepresentations.” Id. at 645. That is because, the court said,
Bridge establishes that any plaintiff, no matter how
far removed from a wrong, can establish directness
sufficient to satisfy RICO merely by claiming that
their injury was the “foreseeable[,] natural,” and
intended “consequence” of a wrongful scheme. Id. at
645. For that reason, the court concluded, “Bridge
precludes” any proximate cause argument based on
the need to prove reliance by third parties, no matter
how many intervening third parties there are. Id.
In the decision below, the Ninth Circuit made clear
that whatever “minor factual and procedural
differences” might exist among the above-described
cases “do not help” to “resolve the central dispute
between the Second and Seventh Circuits’ reasoning
and the First and Third Circuits’ reasoning.” App.
31a. The “central dispute” among those courts, the
Ninth Circuit explained, is “whether the decisions of
prescribing physicians and pharmacy benefit
managers constitute intervening causes that sever
the chain of proximate cause between the drug
manufacturer and the TPP.” Id. And on that
“central dispute,” the Ninth Circuit unreservedly
sided with the First and Third Circuits, concluding
that those two courts “have it right.” Id. at 31a-32a.
Moreover, like the district court before it, see App.
57a-58a, the court of appeals acknowledged that its
decision about which side of the split to endorse was
central to its holding. See, e.g., App. 33a (noting that
adopting Second and Seventh Circuits’ “opposite”
rule would have been dispositive).

19
C. The Court Of Appeals Erred In Focusing
On Foreseeability Rather Than
Directness.
By substituting foreseeability for directness, the
Ninth Circuit—like the First and Third Circuits
before it—ignored this Court’s instruction that
directness, not foreseeability, is the critical
consideration in assessing RICO proximate cause.
The directness requirement has been a central
feature of this Court’s RICO jurisprudence from the
beginning. In the decision first recognizing RICO’s
proximate cause requirement, the Court held that
RICO “demand[s] * * * some direct relation between
the injury asserted and the injurious conduct
alleged.” Holmes, 503 U.S. at 268. Explaining the
“relation” required to satisfy that test, the Court
noted the “general tendency of the law * * * not to go
beyond the first step.” Id. at 271; see also Hemi Grp.,
559 U.S. at 10 (plurality op.). The Court confirmed
the centrality of directness in Anza v. Ideal Steel
Supply Corp., 547 U.S. 451, 461 (2006), where it held
that “[w]hen a court evaluates a RICO claim for
proximate causation, the central question it must
ask is whether the alleged violation led directly to
the plaintiff’s injuries.” (emphasis added).
The Court has also made clear that the directness
requirement cannot be satisfied merely by demonstrating that an alleged injury was foreseeable. In
Anza, for example, the Court reversed a determination by a court of appeals that RICO proximate
causation was adequately pleaded where the plaintiff
charged that a business competitor systematically
underpaid taxes (the alleged racketeering activity)
with the specific aim of using the funds to lower
prices and attract the plaintiff’s customers. 547 U.S.

20
at 454-55, 460. The Court rejected the notion that a
plaintiff adequately pleads proximate cause merely
by alleging that the defendant’s wrongful conduct
“was intended to and did” cause the harm the
plaintiff alleged.
Id. at 454-55, 460 (a “RICO
plaintiff cannot circumvent the proximate cause
requirement simply by claiming that the defendant’s
aim” was to profit at the plaintiff’s expense). Noting
the “indirect route” the defendants had taken “to
accomplish their goal,” the Court held RICO’s
proximate
cause
requirement
unsatisfied,
notwithstanding the plaintiffs’ allegation—virtually
identical to the respondents’ here—that the
defendants had specifically intended to cause the
injury alleged. Id. at 460-61.
Four Justices reaffirmed that approach in Hemi
Group, the Court’s most recent effort to bring clarity
to the law of RICO proximate cause. There, an outof-state seller of cigarettes to residents of New York
City failed to report the sales to New York State, as
required by statute, with the result that the City
could not identify and tax the purchasers. 559 U.S.
at 4-5. Even though the conduct of the seller was a
but-for cause of the harm to the City, and the harm
was foreseeable, see, e.g., id. at 22-23 (Breyer, J.,
dissenting), the Court held that the seller’s conduct
was not the direct cause, and the RICO claim should
thus have been dismissed. Id. at 12-13 (plurality
op.).
The dissent criticized the plurality for
permitting a RICO defendant to invoke proximate
cause principles to escape liability for a “foreseeable,”
“intended” harm, see 559 U.S. at 12 (plurality op.)
(quoting id. at 24 (Breyer, J., dissenting)), but the
plurality responded that “precisely the [same]
argument [was] lodged against the majority opinion

21
in Anza,” where “the dissent criticized the majority’s
view for ‘permitting a defendant to evade liability for
harms that are not only foreseeable, but the
intended consequences of the defendant's unlawful
behavior.’” Id. (quoting Anza, 547 U.S. at 470
(Thomas, J., concurring in part and dissenting in
part)) (alterations omitted).
The Hemi Group
plurality thus criticized the dissent for endorsing a
“line of reasoning” that “would have RICO’s
proximate cause requirement turn on foreseeability,
rather than on the existence of a sufficiently ‘direct
relationship’ between the fraud and the harm.” Id.
Adopting such an approach, the plurality said, would
be tantamount “to revisit[ing]” Anza. Id.
In this case, the Ninth Circuit—like the First and
Third Circuits before it—adopted the reasoning of
the Hemi Group dissent, which the Hemi Group
plurality rejected as contrary to Anza. Relying on
those two other circuits, the court of appeals held
that no matter what “intermedia[te]” factors came
between
petitioners’
alleged
conduct
and
respondents’ alleged injury, those factors could not
constitute “an intervening cause,” because the
injury would have been a “perfectly foreseeable”
result of the alleged conduct. App. 32a. The court of
appeals thus vitiated the directness requirement this
Court’s precedents require by decreeing it satisfied
any time a claimed injury is foreseeable. See id.
And the First and Third Circuits have used nearly
identical language in making the same mistake. See
Avandia, 804 F.3d at 645 (“injury” was “sufficiently
direct” because alleged wrongdoing “could have been
successful only if plaintiffs paid for Avandia”);
Neurontin, 712 F.3d at 38 & n.12 (deeming
foreseeability and intent dispositive and purporting

22
to distinguish Hemi Group on the ground that the
plaintiff there was not a “foreseen and intended
victim”). 8
The court of appeals’ error cannot be justified by its
invocation of the single-paragraph discussion of
directness in Bridge. Cf. App. 16a-17a. In that case,
the Court rejected the defendant’s argument that,
absent first-party reliance, there can be no
sufficiently direct injury to establish proximate cause
under RICO. While the Court mentioned that the
claimed injuries were a foreseeable and natural
consequence of the alleged fraud, it expressly relied
on the absence of “independent factors” in concluding
that the plaintiff’s injury was direct despite the
absence of first-party reliance. Bridge, 553 U.S. at
658. Bridge thus provides no support for the court of
appeals’ apparent view, shared with the First and
Third Circuits, that such “independent factors,” id.,
are irrelevant. On the contrary, and as a plurality of
this Court has made clear, the absence of those
factors was essential to Bridge’s holding. See Hemi
Grp., 559 U.S. at 14-15 (plurality op.) (holding that
causation was absent because, “in contrast to
Bridge,” the plaintiffs’ “theory of liability rest[ed] on
8 The defendants in Avandia and Neurontin filed petitions

for certiorari, but did so before Sidney Hillman and the Ninth
Circuit’s decision here, when the circuit split the court of
appeals acknowledged was far less developed than it is now.
Compare, e.g., Sidney Hillman, 873 F.3d at 575 (affirming
dismissal granted because “plaintiffs could not hope to show
proximate causation”) with App. 33a (rejecting “opposite” rule of
“the Second and Seventh circuits”). Both petitions focused on
questions presented distinct from those here, and both were
denied. See GlaxoSmithKline LLC v. Allied Servs. Div. Welfare
Fund, 136 S. Ct. 2409, 2409 (2016); Pfizer Inc. v. Kaiser Found.
Health Plan, Inc., 571 U.S. 1094, 1094 (2013).

23
the independent actions of third and even fourth
parties”). Nor did the Court in Bridge backtrack
from Holmes and Anza in its brief discussion of
directness, which was unnecessary to resolving the
question presented in any event. Foreseeability may
be necessary to allege directness where first-party
reliance is lacking, but Bridge makes clear that it is
not sufficient.
The court of appeals also committed a basic logical
error in concluding that Holmes supported its
holding because “[p]roximate cause exists to ‘limit a
person’s responsibility for the consequences of that
person’s own acts,’” and the claimed injury is
allegedly a “consequence[]” of petitioners’ alleged
acts. App. 33a (quoting Holmes, 503 U.S. at 268).
The quoted statement undermines rather than
supports the Ninth Circuit’s proximate cause
analysis, since it establishes that but-for causation is
not sufficient to demonstrate proximate cause. See
Holmes, 503 U.S. at 268-69. But the Ninth Circuit
turned that principle on its head, misreading Holmes
to establish that proximate causation is present
wherever but-for causation can be found. In the
process, the court collapsed the long-recognized
distinction between those two fundamental concepts.
See, e.g., Associated Gen. Contractors of Cal., Inc. v.
Cal. State Council of Carpenters, 459 U.S. 519, 533,
536 (1983) (noting the “well-accepted common-law
rule” that “the judicial remedy cannot encompass
every conceivable harm that can be traced to alleged
wrongdoing”).
The Court should resolve the
longstanding circuit split and correct this
fundamental error.

24
II. THERE IS AN ENTRENCHED,
ACKNOWLEDGED CIRCUIT SPLIT ON
THE SECOND QUESTION PRESENTED.
The Ninth Circuit also exacerbated a circuit split,
acknowledged by dissenting judges on two separate
courts of appeals, on the related and equally
important question of whether purchasers of a
product that is fully, effectively, and beneficially
consumed, who thus get the benefit of the bargain
they struck in purchasing it, can allege Article III
injury merely by pointing to an allegedly undisclosed
risk or defect that materialized only as to others. See
App. 40a-41a n.1. The Court should grant certiorari
and reverse on that question as well.
A. The Decision Below Cannot Be
Reconciled With The “Benefit Of The
Bargain” Rule The Third And Fifth
Circuits Apply.
Relying on its prior, published decision in Mazza,
the Ninth Circuit held that plaintiffs can allege
Article III injury merely by asserting that they would
not have purchased a product if they had known of a
given risk or defect, even if the product was fully
consumed and provided the bargained-for benefits
without ill effect. See supra at 12. Dissenting judges
on two courts of appeals have already acknowledged
a circuit split on that question. See Johnson &
Johnson, 903 F.3d at 295 & n.12 (Fuentes, J.,
dissenting) (noting Third Circuit’s disagreement with
the Ninth Circuit’s decision in Mazza, 666 F.3d at
595); Zurn Pex, 644 F.3d at 623-24 (Greunder, J.,
dissenting).
The Ninth Circuit’s decision squarely conflicts with
decisions of the Third and Fifth Circuits. In Johnson

25
& Johnson, over a dissent decrying the majority’s
departure from Ninth Circuit cases, the Third
Circuit affirmed the dismissal of a consumer class
action alleging that a baby powder manufacturer’s
failure to disclose the risk of ovarian cancer allegedly
associated with its product entitled consumers who
did not develop ovarian cancer to refunds. The court
held that a plaintiff could not plead Article III
standing by alleging that, “had she been properly
informed that using Baby Powder could lead to an
increased risk of developing ovarian cancer, she
would not have purchased the powder in the first
place.” Johnson & Johnson, 903 F.3d at 282, 290.
The mere allegation that the product was “unsafe as
to others,” the Third Circuit held, did not
adequately plead that the plaintiff’s “economic
benefit * * * was anything less than the price she
paid.” Id. at 289-90. As the Third Circuit explained,
“succinctly, buyer’s remorse, without more, is not a
cognizable injury under Article III.” Id. at 281; see
also Koronthaly v. L’Oreal USA, Inc., 374 F. App’x
257, 258-59 (3d Cir. 2010) (no injury in fact without
“allegation that [the plaintiff] received a product that
failed to work for its intended purpose or was worth
objectively less than what one could reasonably
expect”).
The Fifth Circuit reached the same conclusion in
Rivera. See 283 F.3d at 320. The plaintiff in that
case purchased and used a painkiller that was later
discovered to cause liver failure in some patients. Id.
at 316-17. After the manufacturer took the drug off
the market, the plaintiff sued, seeking to represent a
triple-refund class of “all patients who were
prescribed, had purchased, and had ingested [the
drug] but suffered no physical or emotional injury.”

26
Id. at 317 (emphasis omitted). The court held that
the plaintiff “paid for an effective pain killer, and she
received just that—the benefit of her bargain.” Id. at
320; cf. In re Canon Cameras Litig., 237 F.R.D. 357,
360 (S.D.N.Y. 2006) (Rakoff, J.) (“A plaintiff who
purchases a digital camera that never malfunctions
over its ordinary period of use cannot be said to have
received less than what he bargained for when he
made the purchase.”). The Fifth Circuit therefore
held that the plaintiffs lacked standing, because no
matter how serious the drug’s side effects had been
as to others, the drug “was not defective as to the
[plaintiff].” Rivera, 283 F.3d at 320; cf. Zurn Pex,
644 F.3d at 623 (Greunder, J., dissenting) (criticizing
majority for departing from Rivera by permitting
plaintiffs to plead standing based on defect that had
materialized only as to others).
B. The Decision Below Is Incorrect.
This Court should grant certiorari to make clear
what the Third Circuit deemed “obvious”: “a plaintiff
does not have Article III standing when she pleads
economic injury from the purchase of a product, but
fails to allege that the purchase provided her with an
economic benefit worth less than the economic
benefit for which she bargained.”
Johnson &
Johnson, 903 F.3d at 290. Like the plaintiffs in
Johnson & Johnson and Rivera, the plaintiffs here
make no allegation that they paid an artificially
inflated price for Actos due to the alleged omissions.
See App. 9a n.3. 9 Accordingly, the simple question
9 Respondents also have not alleged or relied on any theory

that, had the alleged omissions not occurred, any patient would
necessarily have been prescribed and purchased an alternative
medication that was cheaper but equally effective. See App.
17a n.7. Their failure to pursue that theory is no surprise,

27
the Ninth Circuit decided was whether a purchaser
of a drug that was fully and effectively consumed,
and that caused no physical injury, can establish
Article III injury simply by alleging that, in
retrospect and with hindsight knowledge, she wishes
she had not paid for the medication and “would like
her money back.” Rivera, 283 F.3d at 319. The
Third and Fifth Circuits’ rejection of such claims was
correct as a matter of both law and common sense,
and the Ninth Circuit erred by departing from their
rule.
III. THIS CASE IS AN EXCELLENT VEHICLE
FOR ADDRESSING TWO QUESTIONS OF
EXCEPTIONAL IMPORTANCE.
This case provides an ideal vehicle for the Court to
address two widely-acknowledged circuit splits that
are in urgent need of resolution. Refund RICO class
actions such as this one are increasingly prevalent,
and both questions presented cut to the heart of
recurring issues critical to their viability. Moreover,
since the Court last attempted to clarify the law of
RICO proximate cause ten years ago in Hemi
Group—a case that failed to yield a majority
opinion—decisions of the courts of appeals on that
issue have reflected persistent confusion.
A. The Viability Of Refund RICO Suits Is A
Matter Of Exceptional Importance.
As Chief Justice Rehnquist observed, “there is no
such thing as prosecutorial discretion to limit the use
of civil RICO by plaintiffs’ attorneys.” William H.
Rehnquist, Remarks of the Chief Justice, 21 St.
since it would be impossible to prove on a classwide basis and,
separately, would further devastate their position on proximate
cause. See supra at 14 n.6.

28
Mary’s L.J. 5, 10 (1989). His remark was prescient:
RICO claims seeking treble damages based on
alleged fraud in drug marketing have become
legion. 10 Class counsel frequently target a manufacturer, as they have here, with conjectural theories
of injury even when the products at issue are
effective and caused no physical harm to the
plaintiffs. 11 And commentators have noted that the
growing trend of such suits has contributed to a
10 See supra at 12-18; see also, e.g., UFCW, 620 F.3d at 135-

36; United Food & Commercial Workers Cent. Pa. & Reg’l
Health & Welfare Fund v. Amgen, Inc., 400 F. App’x 255, 257
(9th Cir. 2010); Ironworkers Local Union No. 68, 634 F.3d at
1355-57; In re Schering Plough Corp. Intron/Temodar
Consumer Class Action, 678 F.3d 235, 248 (3d Cir. 2012); Se.
Laborers Health & Welfare Fund, 444 F. App’x at 410; In re
Bextra & Celebrex Mktg. Sales Practices and Prod. Liab. Litig.,
2012 WL 3154957, at *5-7 (N.D. Cal. Aug. 2, 2012); Health Care
Serv. Corp. v. Pfizer, Inc., 2012 WL 2505555, at *3-4 (E.D. Tex.
Apr. 23, 2012), report and recommendation adopted, 2012 WL
2504884 (E.D. Tex. June 28, 2012); Dist. 1199P Health &
Welfare Plan v. Janssen, L.P., 784 F. Supp. 2d 508, 523-25
(D.N.J. 2011); In re Yasmin & Yaz (Drospirenone) Mktg., Sales
Practices & Prods. Liab. Litig., 2010 WL 3119499, at *6-8 (S.D.
Ill. Aug. 5, 2010); In re Actimmune Mktg. Litig., 614 F. Supp. 2d
1037, 1049-53 (N.D. Cal. 2009), aff’d, 464 F. App’x 651 (9th Cir.
2011); S. Ill. Laborers’ & Emp’rs Health & Welfare Fund v.
Pfizer Inc., 2009 WL 3151807, at *5-7 (S.D.N.Y. Sept. 30, 2009).
11 See supra at 12-18; see also, e.g., Ironworkers Local Union

No. 68, 634 F.3d at 1355-57; UFCW, 620 F.3d at 134; Schering
Plough, 678 F.3d at 238-39, 242; Se. Laborers, 444 F. App'x at
401; In re Celexa & Lexapro Mktg. & Sales Practices Litig., 65
F. Supp. 3d 283, 292-93 (D. Mass. 2014); Ind./Ky./Ohio Reg’l
Council of Carpenters Welfare Fund v. Cephalon, Inc., 2014 WL
2115498, at *5-7 (E.D. Pa. May 21, 2014); Plumbers &
Pipefitters Local 572 Health & Welfare Fund v. Merck & Co.,
2013 WL 1819263, at *6-7 (D.N.J. Apr. 29, 2013); In re Bextra,
2012 WL 3154957, at *6-8; Yasmin & Yaz, 2010 WL 3119499, at
*6-7.

29
sharp increase in the number of pharmaceutical
product liability cases in federal courts. See, e.g.,
Victor. E. Schwartz & Cary Silverman, The Rise Of
Empty Suit Litigation: Where Should Tort Law Draw
the Line, 80 Brook. L. Rev. 599, 630-33 & n.171
(2015) (noting that more than 20,000 pharmaceutical
product liability cases were pending in federal MDLs
as of 2015, and that it is routine for plaintiffs’
counsel to “generally allege that a drug is simply not
as safe or effective as patients (or their doctors) were
led to believe, or that the patient would not have
purchased the drug, * * * even where the medicine
worked for that individual”). The First, Third, and
Ninth Circuit’s rulings are an open invitation to
forum shopping that will likely result in the
continued proliferation of such claims. See Thomas
M. Greene, A New Weapon in Pharma Cases, 47
Trial 40, 41, 44 (Nov. 2011) (authored by plaintiffs’
counsel in Neurontin) (predicting increased RICO
litigation against pharmaceutical companies because
“RICO’s powerful remedies make it an attractive
tool” for civil litigants in such cases).
Moreover, there is tremendous pressure to settle
even groundless claims in the oft-recurring context
this case presents. See, e.g., AT&T Mobility LLC v.
Concepcion, 563 U.S. 333, 350 (2011) (noting the “in
terrorem” effect of class actions on the incentive to
settle). A civil RICO allegation presents the specter
of damages amounting to three times the revenue
attributable to a given drug and, as if that were not
enough, the opprobrium associated with being
labeled a racketeer by a federal court. See, e.g.,
Nichols v. Mahoney, 608 F. Supp. 2d 526, 536
(S.D.N.Y. 2009). As commentators have observed,
the settlement leverage these cases exert results in

30
payments that amount to a tax on drug
manufacturers—payable to uninjured plaintiffs and
their counsel—that will inevitably lead to increases
in consumer prices and decreases in the
development, quality, and availability of prescription
drugs. In re Bridgestone/Firestone, Inc., Tires Prods.
Liab. Litig., 288 F.3d 1012, 1017 (7th Cir. 2002); A.
Mitchell Polinsky & Steven Shavell, The Uneasy
Case for Product Liability, 123 Harv. L. Rev. 1437,
1475 (2010) (explaining that pharmaceutical
products litigation creates minimal value to
consumers while adding billions of dollars of
litigation-related costs to drug prices).
The decision below will only exacerbate the surge of
coercive no-injury lawsuits. By recognizing claims
for economic injury under RICO’s civil provisions
even where the causal chain depends on the decisionmaking of multiple independent actors, the Ninth
Circuit’s decision creates an irresistible incentive for
countless TPPs and other insurance providers, as
well as other plaintiffs, to burden the courts with
speculative and attenuated RICO claims against
manufacturers of pharmaceuticals and a range of
other products. The result would be to virtually
guarantee a tag-along, treble-damages refund RICO
case after the filing of every product liability lawsuit.
The Ninth Circuit’s standing holding alone has
implications far beyond the pharmaceutical context.
For example, consumers recently filed a putative
class action against Boeing and Southwest Airlines,
contending that because of those companies’ alleged
misrepresentations and omissions about the risks of
the 737-MAX aircraft, every person who
purchased a ticket for a flight on those planes—
including all who flew and arrived at their

31
destinations safely—is owed a treble-damages refund
for every ticket they ever purchased. In rejecting the
plaintiffs’ claim to standing based on buyer’s
remorse—the precise theory the Ninth Circuit
endorsed here—the district court in that case
observed that such a “theory of injury is the type of
no-injury products liability claim that [the Fifth
Circuit’s decision in] Rivera definitively foreclosed.”
Memorandum Opinion & Order at 9, Earl v. The
Boeing Co., No. 4:19-cv-507 (E.D. Tex. Feb. 14, 2020),
ECF No. 56 (citing Rivera, 283 F.3d 315). Yet in the
Ninth Circuit, such a claim could proceed unabated.
The proliferation of such suits threatens to expose
countless companies to ruinous litigation costs and
potentially catastrophic damages in cases brought by
purchasers who, unlike traditional products-liability
plaintiffs, received the full benefits of their bargains
and suffered no physical harm. Cf. E. River S.S.
Corp. v. Transam. Delaval, Inc., 476 U.S. 858, 866-67
(1986) (noting that “[p]roducts liability grew out of a
public policy judgment” focused on bodily injury). It
also creates a liability regime that potentially
compensates those who safely and effectively use a
product at significantly greater total amounts than
those who used the product and suffered an actual
physical injury. The result is to award windfall
recoveries to uninjured purchasers and their lawyers
while diverting resources from the legitimately
harmed. The Court should reject these efforts to
pervert the purposes of tort law.
B. The Law Of RICO Proximate Cause And
Standing Are In Dire Need Of
Clarification.
Granting certiorari would also enable the Court to
provide long-overdue clarification of the law of RICO

32
proximate cause. The combination of this Court’s
brief discussion of directness in Bridge and the
failure of any opinion to command a majority in
Hemi Group has led to persistent uncertainty in that
area of law. Compare Hemi Grp., 559 U.S. at 12
(plurality op.) (basing RICO proximate causation “on
the directness of the relationship between the
conduct and the harm”) with id. at 18-19 (Ginsburg,
J., concurring in part and concurring in the
judgment), and id. at 22-29 (Breyer, J., dissenting).
Many lower courts have properly applied the
“direct relation” test set forth in Holmes and Anza
and reaffirmed in Bridge and Hemi Group. See, e.g.,
Sidney Hillman, 873 F.3d at 575 (citing Hemi Group,
Holmes, and Anza). But others, including the Ninth
Circuit in this case, misapprehend this Court’s
precedents and interpret the proximate cause
requirement so loosely as to nullify it. Indeed, the
Ninth Circuit’s decision, like the First Circuit’s in
Neurontin and the Third Circuit’s in Avandia,
reflects uncertainty about matters as fundamental as
which of this Court’s cases states the governing test.
App. 16a-19a, 32a-33a (finding proximate cause
under the “Bridge precedent alone,” but nevertheless
applying a separate, three-part balancing test based
on the so-called “Holmes factors,” and engaging in a
separate analysis of foreseeability); see also
Neurontin, 712 F.3d at 38 (applying “both the direct
relationship and functional tests articulated in
Holmes and its progeny”) (emphasis added).
The predictable result has been widespread
confusion among the circuit courts on a range of
questions pertaining to RICO proximate cause. In
the ten years since Hemi Group, the Court has
received numerous petitions alleging intractable

33
confusion and division among the circuit courts on
how to interpret and apply RICO’s proximate cause
requirement. 12 The Ninth Circuit’s decision here, in
which it acknowledged and delineated the clear
circuit split on how the requirement applies to a fact
pattern that arises frequently in pharmaceutical
cases, is a stark call for clarification. And despite the
Court’s attempts to restrict Article III standing in
cases where plaintiffs allege no actual injury, see,
e.g., Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1550
(2016); Clapper v. Amnesty Int’l USA, 568 U.S. 398,
422 (2013), the circuit split presented in this petition
demonstrates that the lower courts still cannot agree
on when putative economic injury suffices to confer
standing where a product has been consumed fully,
safely and effectively.
C. This Case Is An Excellent Vehicle.
This case is an excellent vehicle for resolving both
questions presented. Both the district court and the
court of appeals made clear that their judgments
required choosing sides in the clear circuit split on
12 Petition for Certiorari, Devon Drive Lionville, LP v. Bank,

No. 19-901 (Jan. 16, 2020) (whether plaintiff who is not the
direct recipient of mail or wire fraud can show RICO proximate
cause); Petition for Certiorari, D’Addario v. D’Addario, No. 18890 (Jan. 8, 2019) (whether estate beneficiary can establish
direct injury where RICO violation harms estate as a whole);
Petition for Certiorari, S.G.E. Mgmt., LLC v. Torres, No. 161309 (Apr. 28, 2017) (whether proximate cause can exist in a
fraud-based RICO claim without proof of reliance by anyone);
Petition for Certiorari, Walters v. McMahen, No. 12-667 (Nov.
28, 2012) (whether depressed wages can be the proximate result
of business’s employment of undocumented workers); Petition
for Certiorari, Heartwood 88, LLC v. BCS Servs., Inc., No. 11124 (July 22, 2011) (petition from decision on remand in Bridge
asking whether Bridge altered the law of RICO proximate
cause to focus on foreseeability, rather than directness).

34
the proximate cause question. The same was plainly
true of the standing question. Moreover, because the
case arrives to this Court on a motion to dismiss,
there is no potential for a factual dispute to obscure
either issue. Each question is also dispositive of
respondents’ claims. If this Court reverses the Ninth
Circuit and upholds the district court’s dismissal of
the RICO claims, that will dispose of all of
respondents’ federal law claims. And if the Court
finds that respondents lack Article III standing, that
would dispose of all of their claims, both state and
federal. Nor is there any prospect that remand
proceedings in the district court would affect this
Court’s consideration of the issues, as the district
court
recently
stayed
proceedings
pending
consideration and final resolution of this petition.
See Order Granting Joint Stipulation for Stay,
Painters & Allied Trades Dist. Council 82 Health
Care Fund v. Takeda Pharm. Co., No. 17-cv-07223
(C.D. Ca. Jan. 16, 2020), ECF No. 167.

35
CONCLUSION
For the foregoing reasons, this Court should grant
the petition and reverse the judgment.
Respectfully submitted,
RANDALL L. CHRISTIAN
SUSAN E. BURNETT
BOWMAN & BROOKE LLP
2901 Via Fortuna Drive
Suite 500
Austin, TX 78746
(512) 874-3800
Counsel for Petitioner
Eli Lilly and Company

JONATHAN S. FRANKLIN
Counsel of Record
PETER B. SIEGAL
NORTON ROSE FULBRIGHT US LLP
799 9th Street NW
Washington, DC 20001
(202) 662-0466
jonathan.franklin@
nortonrosefulbright.com
DARRYL W. ANDERSON
NORTON ROSE FULBRIGHT US LLP
1301 McKinney Street
Houston, TX 77010
(713) 651-5562
Counsel for Petitioners Takeda
Pharmaceuticals Company
Limited and Takeda
Pharmaceuticals USA, Inc.

February 2020

APPENDIX

TABLE OF CONTENTS
Appendix A:

Opinion of the U.S. Court of
Appeals for the Ninth Circuit
(Dec. 3, 2019) ................................. 1a

Appendix B:

Memorandum of the U.S.
Court of Appeals for the Ninth
Circuit (Dec. 3, 2019) ................... 39a

Appendix C:

In Chambers Order Granting
Motion to Dismiss of the U.S.
District Court for the Central
District of California
(April 3, 2018) .............................. 46a

Appendix D:

In Chambers Order Partially
Granting Motion to Dismiss of
the U.S. District Court for the
Central District of California
(Feb. 1, 2018) ............................... 56a

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAINTERS AND ALLIED TRADES
DISTRICT COUNCIL 82 HEALTH
CARE FUND, third-party
healthcare payor fund; ANNIE
M. SNYDER, a California
consumer; RICKEY D. ROSE, a
Missouri consumer; JOHN
CARDARELLI, a New Jersey
consumer; MARLYON K.
BUCKNER, a Florida consumer;
SYLVIE BIGORD, a
Massachusetts consumer, on
behalf of themselves and all
others similarly situated,
Plaintiffs-Appellants,
v.
TAKEDA PHARMACEUTICALS
COMPANY LIMITED, a Japanese
Corporation; TAKEDA
PHARMACEUTICALS U.S.A., FKA
Takeda Pharmaceuticals North
America, Inc., an Illinois
corporation; ELI LILLY AND

No. 18-55588
D.C. No. 2:17-cv07223-SVW-AS

OPINION

2a
COMPANY, an Indiana
corporation,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Stephen V. Wilson, District Judge, Presiding
____________
Argued and Submitted June 6, 2019
Seattle, Washington
Filed December 3, 2019
Before: Carlos T. Bea, Jacqueline H. Nguyen,
and Paul J. Watford *, Circuit Judges.
Opinion by Judge Bea
SUMMARY **
Racketeer Influenced and Corrupt
Organizations Act
The panel reversed the district court’s judgment
dismissing civil RICO claims under Fed. R. Civ. P.
* Judge Watford was drawn to replace Judge
Rawlinson. Judge Watford has read the briefs,
reviewed the record, and watched the recording of oral
argument held on June 6, 2019.
** This summary constitutes no part of the opinion
of the court. It has been prepared by court staff for the
convenience of the reader.

3a
12(b)(6) for lack of RICO standing and remanded for
further proceedings.
Plaintiffs brought a putative class action against
pharmaceutical companies, alleging that the
companies refused to change the warning label of
their drug Actos or otherwise inform the public after
they learned that the drug increased a patient’s risk
of developing bladder cancer. Plaintiffs were five
patients and a third-party payor (“TPP”) of health and
welfare benefits to covered members and their
families. Plaintiffs sought to represent a class of
similarly situated patients and TPPs who paid or
incurred costs for Actos. They alleged that defendants
conspired to commit mail and wire fraud by
intentionally misleading physicians, consumers, and
TPPs to believe that Actos did not increase a person’s
risk of developing bladder cancer. Plaintiffs sought to
recover economic damages under RICO for the
payments they made to purchase Actos, which they
allege they would not have purchased had they known
of the bladder cancer risk. The district court held that
plaintiffs failed to allege that their harm was “by
reason of” the alleged RICO violation, as required for
RICO standing, because they failed to allege the
claimed RICO violation was the proximate cause of
their claimed losses.
Agreeing with the First and Third Circuits, and
disagreeing with the Second and Seventh Circuits, the
panel held that plaintiffs sufficiently alleged
proximate cause. Supreme Court precedent requires
a direct relationship between the injury asserted and
the defendant’s conduct. The Supreme Court applies
the Holmes factors, considering (1) whether it would

4a
be too difficult to ascertain what damages are
attributable to defendants’ alleged RICO violation, (2)
the risk of multiple recoveries by plaintiffs at different
levels of injury from defendants’ acts, and (3) whether
holding defendants liable justifies the general interest
of deterring injurious conduct. The panel concluded
that plaintiffs sufficiently alleged a direct
relationship, and the Holmes factors weighed in favor
of permitting their RICO claims to proceed. The panel
thus held that patients and TPPs suing
pharmaceutical companies for concealing an allegedly
unknown safety risk about a drug can satisfy RICO’s
proximate cause requirement. The panel concluded
that, although prescribing physicians served as
intermediaries between defendants’ fraudulent
omission of Actos’s risk of causing bladder cancer and
plaintiffs’ payments for Actos, prescribing physicians
did not constitute an intervening cause to cut off the
chain of proximate causation. In addition, plaintiffs
adequately alleged reliance on defendants’ alleged
misrepresentations and omissions.
The panel addressed additional claims in a
concurrently filed memorandum disposition.

COUNSEL
R. Brent Wisner (argued) and Michael L. Baum,
Baum Hedlund Aristei & Goldman PC, Los Angeles,
California; Christopher L. Coffin and Nicholas R.
Rockforte, Pendley Baudin & Coffin LLP, New
Orleans, Louisiana; for Plaintiffs-Appellants.

5a
Jonathan S. Franklin (argued), Norton Rose Fulbright
US LLP, Washington, D.C.; Darryl W. Anderson and
Geraldine W. Young, Norton Rose Fulbright LLP,
Houston, Texas; for Defendants-Appellees Takeda
Pharmaceuticals Company Limited and Takeda
Pharmaceuticals U.S.A.
Randall L. Christian (argued) and Susan E. Burnett,
Bowman and Brooke LLP, Austin, Texas, for
Defendant-Appellee Eli Lilly and Co.
OPINION
BEA, Circuit Judge:
Today we confront an issue of first impression in our
circuit, and one that has caused an apparent circuit
split among four of our sister circuits: In civil actions
brought under the Racketeer Influenced and Corrupt
Organizations Act (“RICO”) against pharmaceutical
companies, do patients and health insurance
companies who reimbursed patients adequately allege
the required element of proximate cause where they
allege that, but for the defendant’s omitted mention of
a drug’s known safety risk, they would not have paid
for the drug?
I. FACTUAL BACKGROUND
This appeal arises from a putative class action
against Takeda Pharmaceuticals USA, Inc., its parent
company Takeda Pharmaceutical Company Ltd., and
Eli Lilly & Co. (collectively, “Defendants”). Together,
Defendants developed and marketed a drug named
Actos. Actos was intended to lower blood sugar in type
2 diabetics. Defendants obtained Food and Drug

6a
Administration (“FDA”) approval for Actos in 1999.
The plaintiffs allege that despite learning through
multiple studies over the next several years that Actos
increased a patient’s risk of developing bladder
cancer, Defendants refused to change Actos’s warning
label or otherwise inform the public of such risk.
Further, the plaintiffs allege that Defendants
convinced the FDA that studies revealing that Actos
increased the risk of bladder cancer were wrong.
Defendants are alleged to have actively misled
prescribing physicians, consumers, and third-party
payors into believing that Actos did not increase a
person’s risk of developing bladder cancer.
Defendants did all of this, the plaintiffs allege, simply
to increase their profits from the sale of Actos.
On September 17, 2010, after further studies of
Actos revealed an increased risk of bladder cancer, the
FDA announced that it was conducting a safety
review of Actos. On June 15, 2011, the FDA released
an official warning to the public that Actos may be
linked to bladder cancer in patients who use it over
prolonged periods of time. Following the FDA’s official
warning, Defendants changed Actos’s warning label to
warn of a bladder cancer risk. The sales of Actos are
alleged to have dropped shortly after the FDA issued
its alert in 2010, and then again when the FDA issued
its official warning in 2011, by a total of
approximately 80%.
A group of patients who developed bladder cancer
after ingesting Actos and their family members then
brought personal injury and wrongful death claims
against Defendants in the Western District of
Louisiana. After a 37-day trial in 2014, the jury

7a
returned a verdict in favor of the plaintiffs, but the
parties later agreed to a global settlement program for
all eligible personal injury claimants who used Actos
before December 1, 2011 and had been diagnosed with
bladder cancer. In re Actos (Pioglitazone) Prods. Liab.
Litig., MDL No. 6:11-MD-2299, 274 F. Supp. 3d 485,
503 (W.D. La. 2017). 1
The present action was also originally filed in the
Western District of Louisiana. But in late 2017, the
parties stipulated to transfer the case to the Central
District of California. The plaintiffs in this case
comprise five individual patients from different states
(collectively, “Patients”) and Painters and Allied
Trades District Council 82 Health Care Fund
(“Painters Fund”) (together, “Plaintiffs”).
Painters Fund is a third-party payor (“TPP”) of
health and welfare benefits to covered members and
their families. As a TPP, Painters Fund reimburses its
members’ claims for drugs, including Actos, submitted
by pharmacies and healthcare providers covered by its
plan. Painters Fund “relies on each member to submit
claims for prescription medications that are medically
reasonable and necessary for treatment,” with the
expectation that patients and their prescribing
physicians will “make informed decisions about which
drugs will be prescribed and, in turn, submitted to
[Painters Fund] for reimbursement.” Painters Fund
“has the authority to determine which drugs are
covered under its plan, although, [it] entrusts the
1 No argument has yet been made in this action that
the settlement encompassed the plaintiffs’ RICO
claims or mooted them.

8a
administration
of
claims
and
formulary
determinations to Prime Therapeutics, LLC, based in
Eagan, Minnesota.” 2
Patients are individuals with type 2 diabetes who
were prescribed Actos by their physicians and who
took Actos to help lower their blood sugar. Each
patient paid an out-of-pocket sum for Actos. Patients
each allege that neither they nor their physicians
knew about Actos’s risk of bladder cancer when they
began taking the drug and that they immediately
stopped taking Actos once they learned that it
increased their risk of developing bladder cancer.
Patients also allege that they never would have
purchased Actos had they known that it increased
their risk of developing bladder cancer, and thus, that
they never would have submitted claims for
reimbursement for purchases of Actos to their
respective TPPs. Only one patient, Annie Snyder from
California, alleges that prior to starting her
prescription, she read and relied upon the Actos label.
But Plaintiffs generally allege that Patients relied on
Defendants’ misrepresentations about Actos, by act or
omission, in purchasing the drug, that physicians
relied on such misrepresentations in prescribing Actos
for their patients, and that TPPs relied on such
misrepresentations in agreeing to pay for Actos
prescriptions for their members.
Plaintiffs seek to represent a class of similarly
situated patients and TPPs “who paid or incurred
2 Prime Therapeutics, LLC is not a party to this
litigation and is not discussed elsewhere in the
complaint.

9a
costs for the drug Actos, for purposes other than
resale, between 1999, i.e., when the drug was
approved, and the present,” excluding “those
consumers who are presently seeking a personal
injury claim arising out of their use of Actos.”
Plaintiffs argue that Defendants conspired to commit
mail and wire fraud under 18 U.S.C. §§ 1341, 1343 by
intentionally misleading physicians, consumers, and
TPPs to believe that Actos did not increase a person’s
risk of developing bladder cancer. Plaintiffs seek to
recover economic damages under RICO for the
payments they made to purchase Actos under the
assumption that it was a safe drug, which they allege
they would not have purchased had they known that
Actos increases a person’s risk of developing bladder
cancer (this is called the “quantity effect theory” of
damages). 3 Plaintiffs do not, however, seek to recover
economic or non-economic damages caused by any
person’s actual ingestion of Actos.
The district court dismissed with prejudice
Plaintiffs’ RICO claims under Federal Rule of Civil
Procedure 12(b)(6) in a single paragraph, holding that
Plaintiffs failed adequately to allege facts sufficient to
establish that Defendants’ acts and omissions were

3 Plaintiffs originally alleged a second damages
theory—that they overpaid for Actos prescriptions
because Defendants inflated the price of Actos under
the guise that Actos did not increase a person’s risk of
developing bladder cancer—called the “excess price
theory.” But Plaintiffs have abandoned their excess
price theory for damages on appeal.

10a
the proximate cause of their claimed damages. This
appeal followed. 4
II. ANALYSIS
A. Standard of Review
We review de novo the district court’s grant of a Rule
12(b)(6) motion to dismiss. Bain v. Cal. Teachers
Ass’n, 891 F.3d 1206, 1211 (9th Cir. 2018). We take all
of Plaintiffs’ factual allegations as true, and we may
affirm the dismissal “only if it appears beyond doubt
that [Plaintiffs] can prove no set of facts in support of
[their] claim[s] which would entitle [them] to relief.”
Id. (internal quotation marks omitted).
B. Plaintiffs’ RICO Claims
The crux of Plaintiffs’ complaint rests on their civil
RICO claims. Although the RICO statute was
originally enacted to combat organized crime, “it has
become a tool for everyday fraud cases brought
against respected and legitimate enterprises.”
Sedima, S.P.R.L. v. Imrex Co., 473 U.S. 479, 499
(1985) (internal quotation marks omitted). Broadly
4 Plaintiffs also brought claims under state
consumer protection laws of California, Florida,
Massachusetts, Minnesota, Missouri, and New
Jersey. In a separate order, the district court
dismissed all of Plaintiffs’ state law claims. With the
exception of their Massachusetts claim, Plaintiffs also
appeal the dismissal of their state law claims. We
address those claims in a concurrently filed
memorandum disposition.

11a
speaking, there are two parts to a civil RICO claim.
The civil RICO violation is defined under 18 U.S.C. §
1962, 5 while “RICO standing” is defined under 18
U.S.C. § 1964(c). The district court dismissed
Plaintiffs’ RICO claims only for lack of standing, and
thus we address only that portion of Plaintiffs’ RICO
claims.
To allege civil RICO standing under 18 U.S.C. §
1964(c), a “plaintiff must show: (1) that his alleged
harm qualifies as injury to his business or property;
and (2) that his harm was ‘by reason of’ the RICO
violation.” Canyon County v. Syngenta Seeds, Inc., 519
F.3d 969, 972 (9th Cir. 2008). Defendants do not
dispute that Plaintiffs have alleged an injury to their
business or property. Rather, as the district court
held, Defendants argue that Plaintiffs have failed to
allege that their harm was “by reason of” the alleged
RICO violation because they have failed to allege the
claimed RICO violation was the proximate cause of
their claimed losses.
1. Supreme Court Precedent
The Supreme Court has interpreted the phrase “by
reason of” in 18 U.S.C. § 1964(c) to require, as
elements for a civil RICO recovery, both proximate
5 To recover for a civil RICO violation, “a plaintiff
must prove that the defendant engaged in (1) conduct
(2) of an enterprise (3) through a pattern (4) of
racketeering activity.” Chaset v. Fleer/Skybox Int’l,
LP, 300 F.3d 1083, 1086 (9th Cir. 2002) (citing 18
U.S.C. § 1962).

12a
and but-for causation. 6 Holmes v. Sec. Inv’r Prot.
Corp., 503 U.S. 258, 268 (1992). The requirement of
proximate cause seeks to “limit a person’s
responsibility for the consequences of that person’s
own acts.” Id. Put another way, “the proximate-cause
requirement generally bars suits for alleged harm
that is ‘too remote’ from the defendant’s unlawful
conduct.” Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 133 (2014). Thus, it
“demand[s] . . . some direct relation between the
injury asserted and the injurious conduct alleged.”
Holmes, 503 U.S. at 268.
This “direct relation” requirement is based upon
three practical factors, stated in Holmes:
First, the less direct an injury is, the
more difficult it becomes to ascertain the
amount of a plaintiff’s damages
attributable to the violation, as distinct
from other, independent, factors. Second,
quite apart from problems of proving
factual causation, recognizing claims of
the indirectly injured would force courts
to adopt complicated rules apportioning
damages among plaintiffs removed at
different levels of injury from the
violative acts, to obviate the risk of
multiple recoveries. And, finally, the
need to grapple with these problems is
simply unjustified by the general
interest in deterring injurious conduct,
6 Defendants do not argue in this appeal that
Plaintiffs’ allegations fail to allege but-for causation.

13a
since directly injured victims can
generally be counted on to vindicate the
law as private attorneys general,
without any of the problems attendant
upon suits by plaintiffs injured more
remotely.
Id. at 269–70 (internal citations omitted). The
Supreme Court has applied the Holmes factors, along
with its direct relation requirement, in each of its
decisions addressing proximate cause for civil RICO
claims.
In Anza v. Ideal Steel Supply Corp., the plaintiff—a
steel mill product retailer in New York City—alleged
that one of its retail competitors caused it economic
harm by failing to charge customers applicable New
York state sales taxes, thereby defrauding the New
York state tax authority. 547 U.S. 451, 457–58 (2006).
This conduct, the plaintiff alleged, allowed the
defendant to offer lower prices and attract more
customers, which in turn caused the plaintiff to lose
customers and profit. Id. The district court dismissed
the plaintiff’s complaint under Rule 12(b)(6) for
failure to plead proximate cause, but the Second
Circuit vacated the district court’s judgment, holding
that the plaintiff had adequately pleaded that the
defendant proximately caused its damages. Id. at 455.
The Supreme Court then reversed the Second
Circuit’s judgment and held that the plaintiff failed to
satisfy the requirement to allege proximate cause
under RICO because the “direct victim of this conduct
was the State of New York, not [the plaintiff].” Id. at
458. Indeed, “[i]t was the State that was being
defrauded and the State that lost tax revenue as a

14a
result.” Id. Although the plaintiff alleged that it
suffered its own harms by losing customers and
profits through the defendant’s failure to tax its
customers, the plaintiff’s asserted harms were
“entirely distinct from the alleged RICO violation
(defrauding the state),” and thus the plaintiff’s
allegations failed the Supreme Court’s direct relation
requirement for the element of proximate cause. Id.
Likewise, in Hemi Group, LLC v. City of New York,
the Supreme Court reversed the Second Circuit’s
holding that the plaintiffs had sufficiently alleged
damages proximately caused by the defendants’
actions under RICO to survive dismissal under Rule
12(b)(6). 559 U.S. 1, 4–5 (2010). There, the City of New
York (the “City”), which imposed a $1.50-per-pack tax
on each pack of cigarettes possessed within New York
City for sale or use, sued a New Mexico retailer that
sold cigarettes online to residents in New York City.
Id. at 4–6. The City alleged that the New Mexico
retailer failed to comply with a federal law requiring
out-of-state vendors to submit customer information
to the states into which it ships cigarettes. Id. at 4.
That failure, the City argued, not only made it more
difficult for the City to track down people who
possessed cigarettes in New York City purchased
elsewhere, but also constituted mail and wire fraud
under RICO, which caused the City to lose millions of
dollars in uncollected per-pack cigarette taxes. Id.
The Supreme Court disagreed. It held that the New
Mexico retailer’s failure to submit customer
information to the State of New York was too
attenuated from the City’s loss of cigarette possession
tax proceeds to satisfy the proximate cause allegation

15a
requirement. See id. at 11. The Supreme Court
explained that the conduct constituting the alleged
fraud was the New Mexico retailer’s failure to submit
customer information to the State of New York, but
“the conduct directly responsible for the City’s harm
was the customers’ failure to pay their taxes.” Id.
Thus, “the conduct directly causing the harm was
distinct from the conduct giving rise to the fraud,” and
therefore the City failed to satisfy the Supreme
Court’s direct relation requirement. Id.
In contrast, in Bridge v. Phoenix Bond & Indemnity
Co., the Supreme Court affirmed the Seventh Circuit’s
reversal of the district court’s order dismissing the
plaintiffs’ complaint for failure sufficiently to allege
the proximate cause element under RICO. 553 U.S.
639, 645, 661 (2008). The plaintiffs were bidders at a
county tax lien auction. Id. at 643. To ensure fair
distribution of tax liens during the auctions, the
county enacted a “Single, Simultaneous Bidder Rule,”
requiring each “tax [lien] buying entity” to bid in its
own name and not to use agents or employees to
submit simultaneous bids on its behalf. Id. The
plaintiffs alleged that the defendants violated that
rule by using agents to submit simultaneous bids on
the defendants’ behalf and directing those agents to
file false attestations that they had complied with the
county’s rules. Id. at 643–44. The plaintiffs alleged
that this deceptive practice resulted in the defendants
receiving a disproportionately higher share of tax
liens at the county auction. Id. The plaintiffs further
alleged that as a result of this deceptive practice, they
were deprived of their ability to obtain their fair share
of tax liens at the county auction. Id. at 644.

16a
The defendants countered that the plaintiffs’ alleged
harm was too speculative to satisfy RICO’s proximate
cause
requirement
because
the
defendants
misrepresented information to the county, not the
plaintiffs. Id. at 648. But a unanimous Supreme Court
rejected this argument, noting that proximate cause
is “a flexible concept that does not lend itself to a
black-letter rule that will dictate the result in every
case.” Id. at 654 (internal quotations omitted).
Applying its direct relation requirement, the Supreme
Court held that the plaintiffs’ “alleged injury—the
loss of valuable liens—is the direct result of [the
defendants’] fraud. It was a foreseeable and natural
consequence of [the defendants’] scheme to obtain
more liens for themselves that other bidders would
obtain fewer liens.” Id. at 658. And unlike in Anza and
Hemi Group, where other parties suffered more direct
injuries than the plaintiffs, in Bridge, the county—
which sold the tax liens at prices not dependent on
who was the buyer—was not injured. Id. Rather, the
plaintiffs were the immediate victims of the
defendants’ fraud and were best situated to sue the
defendants. Id. Thus, the Supreme Court held that
the plaintiffs had sufficiently alleged proximate cause
under RICO. Id. at 661.
Under the Supreme Court’s Bridge precedent alone,
we think Plaintiffs’ allegations satisfy the Supreme
Court’s direct relation requirement. Here, the alleged
violation is that Defendants actively concealed Actos’s
risk of causing bladder cancer to sell more Actos to
unsuspecting persons, thereby increasing Actos’s
revenue. And Plaintiffs’ alleged injury is that they
purchased Actos prescriptions for which they would
not have paid had they been warned about Actos’s risk

17a
of bladder cancer. Because Plaintiffs were immediate
victims of Defendants’ alleged fraudulent scheme to
conceal Actos’s risk of bladder cancer, the alleged
RICO violation (conspiracy to commit mail and wire
fraud violative of 18 U.S.C. §§ 1341, 1343) has a direct
relation to Plaintiffs’ alleged harm.
The Holmes factors also weigh in favor of permitting
Plaintiffs’ RICO claims to proceed. The first Holmes
factor tasks us with determining whether it would be
too difficult to ascertain what damages are
attributable to Defendants’ alleged RICO violation, as
opposed to factors other than, and independent of,
Defendants’ alleged misrepresentations. 503 U.S. at
269. While “it is often easier to ascertain the damages
that flow from actual, affirmative conduct, than to
speculate what damages arose from a party’s failure
to act,” Oregon Laborers-Employers Health & Welfare
Trust Fund v. Philip Morris Inc., 185 F.3d 957, 965
(9th Cir. 1999) (internal quotation marks omitted), we
are not persuaded that it is so difficult here that
Plaintiffs should be denied the opportunity to prove
their damages. 7 We leave it to the district court on
7 We note that Defendants’ argument that had
Plaintiffs not taken Actos, they would have paid for an
alternative drug to treat their type 2 diabetes, has not
fallen on deaf ears. It seems quite logical that
Plaintiffs would have paid for a different drug to treat
patients’ diabetes had they known that Actos
increases a person’s risk of developing bladder cancer.
But at this stage in the proceedings, we take
Plaintiffs’ allegations that they would not have bought
or paid for Actos as true. Bain, 891 F.3d at 1211.
Plaintiffs do not allege that they would have paid for

18a
remand to assess Plaintiffs’ damages, if the litigation
proceeds to that phase.
Second, we consider the risk of multiple recoveries
by plaintiffs at different levels of injury from the
defendants’ acts. Holmes, 503 U.S. at 269. Here, like
in Bridge, and unlike in Anza and Hemi Group, there
is no concern of “duplicative recoveries by plaintiffs
removed at different levels of injury from the
violation.” Bridge, 553 U.S. at 658. It is each
individual plaintiff who paid out money for Actos
prescriptions who now seeks recovery of those
payments. As we read Plaintiffs’ complaint, the
damages suffered by Patients and Painters Fund do
not overlap, as it appears that Patients seek to recover
only the dollars they paid for Actos out-of-pocket, for
which they have not been reimbursed by a TPP. 8
Further, Plaintiffs’ putative class expressly excludes
individuals who are pursuing personal injury claims,
an alternative diabetes drug had they known Actos
carries an increased risk of causing bladder cancer.
Further, if what Defendants argue proves true,
Plaintiffs may still be entitled to damages if the
alternative drugs they would have paid for cost less
than Actos. Plaintiffs have alleged there are at least
three less expensive alternatives to Actos, and
discovery may prove Plaintiffs were likely to have
bought these alternatives. In any event, this is a
damages question for another day.
8 Of course, on remand, if discovery reveals that
Patients’ claimed damages overlap with damages
claimed by Painters Fund or another TPP, Plaintiffs
should not recover any overlapping damages.

19a
so there is no risk that some plaintiffs will receive
overlapping economic and personal injury damages.
Finally, under the third Holmes factor, we consider
whether holding Defendants liable in this case
justifies the general interest of deterring injurious
conduct or whether there are more directly injured
victims we can count on to hold Defendants liable. 503
U.S. at 269–70. Here, patients and TPPs who paid
money for Actos are the most direct victims of those
who suffered economic injury. Although people who
ingested Actos and developed bladder cancer suffered
an additional and greater harm than others who paid
for Actos but did not develop bladder cancer, this does
not change the fact that all patients and TPPs who
paid for Actos on the premise that it did not cause an
increased risk of bladder cancer were allegedly
defrauded by Defendants and suffered the same direct
economic injury: payments for a drug which would not
have been purchased if suitably described.
Additionally, others may have been affected by
Defendants’ alleged fraud. For instance, prescribing
physicians who prescribed Actos for their patients
may have watched their patients develop bladder
cancer. But as far as we can tell from Plaintiffs’
complaint, prescribing physicians did not suffer an
economic injury. Thus, holding Defendants liable for
Plaintiffs’ alleged injuries advances the interest in
deterring injurious conduct, without including others
who did not suffer direct out-of-pocket losses.
2. Circuit Court Precedent
While our court has recognized the Supreme Court’s
direct relation requirement and Holmes factors for

20a
RICO proximate cause in several cases, see, e.g.,
Harmoni International Spice, Inc. v. Hume, 914 F.3d
648 (9th Cir. 2019); Canyon County, 519 F.3d at 972;
Oregon Laborers, 185 F.3d at 963–66, 9 we have never
9 Oregon Laborers, the case most closely related to
the present action in this circuit to date, is
distinguishable. There, six employee health and
welfare benefit plans sued tobacco companies and
public relations companies under federal RICO and
other antitrust and state laws. 185 F.3d at 961. The
plaintiffs alleged that the defendants conspired to
persuade the public that scientific studies linking
smoking to health risks were not accurate and that
the connection between smoking and disease was
merely an “open controversy.” Id. The plaintiffs
alleged that this wrongful conduct “resulted in more
smoking, less quitting, and smoking of more
hazardous cigarettes” among their plan participants,
which then resulted in more disease among their plan
participants who smoked. Id. at 962. In turn, the
plaintiffs alleged, they suffered higher expenditures
to cover their plan participants’ medical bills. Id.
The district court held that the plaintiffs failed to
state a RICO claim for relief under Rule 12(b)(6), and
we affirmed. Id. at 961. We held that the plaintiffs’
alleged injury was “indirect” and too remote to satisfy
RICO’s proximate cause requirement. Id. at 963. We
explained that “all of [the] plaintiffs’ claims rely on
alleged injury to smokers—without any injury to
smokers, [the] plaintiffs would not have incurred the
additional expenses in paying for the medical
expenses of those smokers.” Id. (second emphasis
added). Instead of the plaintiffs, we reasoned, the

21a
applied it to the situation at issue here—whether
patients and TPPs suing pharmaceutical companies
for concealing an allegedly known safety risk about a
drug can satisfy RICO’s proximate cause
requirement. 10 But several of our sister circuits have
smokers were the direct victims of the defendant’s
alleged wrongful conduct. Id. at 964. Thus, under the
Supreme Court’s direct relation requirement, we held
that the alleged RICO violation was distinct from the
plaintiffs’ alleged injury. See id. at 963–64. Therefore,
the plaintiffs failed to allege that their damages were
proximately caused by the defendants’ actions. See id.
at 966.
Plaintiffs’ alleged injury in this case is distinct from
the plaintiffs’ alleged injury in Oregon Laborers.
There, the chain of causation from the defendant’s
alleged misrepresentation to the plaintiffs’ alleged
injury depended upon an independent link that
required the smokers to develop illnesses that
necessitated medical treatment, for which the
plaintiffs then paid. But here, Plaintiffs’ alleged
injury is directly related to Defendants’ alleged
misrepresentations, as they allege that they paid
money out-of-pocket for Actos, which they otherwise
would not have paid had Defendants not fraudulently
omitted Actos’s risk of causing bladder cancer.
Whether Plaintiffs developed bladder cancer is
irrelevant to their claims. Thus, Oregon Laborers is
distinguishable and does not control here.
10 The Seventh Circuit once commented that the
Ninth Circuit “deem[s] this [issue] so straightforward
that [it] ha[s] issued nonprecedential decisions” about
it. Sidney Hillman Health Ctr. v. Abbott Labs., 873

22a
F.3d 574, 578 (7th Cir. 2017). Not quite. Rather, in In
re Actimmune Marketing Litigation, we summarily
affirmed the district court’s dismissal without
prejudice of the plaintiffs’ RICO claims where the
district court held in part that the plaintiffs’
complaint failed sufficiently to plead proximate cause
for their civil RICO claim for lack of specificity under
Federal Rule of Civil Procedure 8(a). 464 F. App’x 651
(9th Cir. 2011) (citing In re Actimmune Mktg. Litig.,
614 F. Supp. 2d 1037, 1050–51 (N.D. Cal. 2009)).
When the plaintiffs filed their amended complaint,
they abandoned their RICO claims. See In re
Actimmune Mktg. Litig., No. C 08-02376 MHP, 2009
WL 3740648, at *1 (N.D. Cal. Nov. 6, 2009). Our
summary affirmance of the district court’s decision to
dismiss the plaintiffs’ RICO claims without prejudice
can hardly be considered a decision on the merits of
the issue that we deemed “so straightforward” as to
issue a non-binding decision.
In United Food & Commercial Workers Central
Pennsylvania & Regional Health & Welfare Fund v.
Amgen, Inc., the plaintiffs sued Amgen, Inc. for
concealing adverse test results about a drug’s off-label
uses. 400 F. App’x 255, 257 (9th Cir. 2010). We held
that the plaintiffs’ complaint failed to identify false
statements or material omissions that Amgen made
about the drug’s safety. Id. Further, we held that the
plaintiffs failed to plead a cognizable theory of
proximate cause for their civil RICO claim because the
complaint “proffered an attenuated causal chain that
involved at least four independent links”—(1) the
United States Pharmacopeia-Drug Information
(“USP-DI”)’s listing of the drug to be used for a certain
off-label use; (2) Medicare’s decision to cover the drug

23a
addressed this question in similar factual scenarios
and have reached different results, creating an
apparent inter-circuit split. We look to their reasoning
for guidance.
a. Seventh Circuit
In Sidney Hillman Health Center v. Abbott
Laboratories, two TPPs who had paid to cover their
patients’ off-label 11 uses of a prescription drug named
Depakote sued the drug manufacturer under RICO for
concealing its role in promoting Depakote’s off-label
uses to intermediaries, such as prescribing
physicians. 873 F.3d 574, 575 (7th Cir. 2017). In
relevant part, the district court dismissed the TPPs’
complaint for failure to allege that their damages
were proximately caused by the drug manufacturer’s
for that off-label use; (3) third-party payors’ decision
to cover the drug for the off-label use; and (4) doctors’
decisions to prescribe the drug for the off-label use. Id.
But we never independently addressed whether
patients and TPPs can meet RICO’s proximate cause
requirement under the Supreme Court’s direct
relation requirement and Holmes factors to hold
pharmaceutical companies liable for mail and wire
fraud. Further, our present case does not require as
many causal links. And of course, because
unpublished dispositions from our circuit are not
precedential, see Ninth Circuit Rule 36-3(a), we are
free to decide this issue in the first instance.
11 “Off-label” refers to using a drug to treat
conditions other than those it was originally
developed to treat.

24a
concealed off-label promotion, and the Seventh Circuit
affirmed. Id. at 575, 578.
The Seventh Circuit first noted that, in some cases,
an injury to one person caused by wrongs against
another can satisfy RICO’s proximate cause
requirement, as the Supreme Court held in Bridge,
553 U.S. at 661. 873 F.3d at 576. However, the
Seventh Circuit held that the TPPs in Sidney Hillman
were too far removed from the alleged RICO violation
to satisfy the proximate cause requirement. Id. The
Seventh Circuit opined that while TPPs “part with
money . . . it is not at all clear that they are the
initially injured parties, let alone the sole injured
parties.” Id. The Seventh Circuit explained that
patients may be the most directly injured parties, as
they incurred financial loss (if they paid a copayment
to receive Depakote) and personal injury damages if
they suffered harmful effects from using Depakote for
an unsafe off-label use. Id. Moreover, the Seventh
Circuit noted, the “patients’ health and financial costs
come first in line temporally; that pharmacies then
send bills to [TPPs], which cover the remainder of the
expense, does not make those [TPPs] the initial losers”
from the drug manufacturer’s unlawful promotion
scheme. Id. The Seventh Circuit opined that
prescribing physicians may also suffer loss, though
indirectly, because “[i]f a physician prescribes an
ineffective medicine and so does not provide [patients]
help, patients may turn elsewhere.” Id.
The Seventh Circuit next explained that physicians
make independent decisions when prescribing
patients medicine, and it would be difficult to
disentangle which physicians’ decisions, if any, were

25a
influenced by the drug manufacturer’s unlawful
promotions. Id. at 577–78. That, and other factors,
such as the fact that some patients may have
benefited from using Depakote for an off-label use,
convinced the Seventh Circuit that it would be too
difficult to calculate the plaintiffs’ alleged damages.
Id. Thus, the Seventh Circuit held that the TPPs—
”several levels removed in the causal sequence” from
the drug manufacturer’s actions—could not satisfy
RICO’s proximate cause requirement. Id. at 576–78.
b. Second Circuit
Similarly, in UFCW Local 1776 v. Eli Lilly & Co.,
TPPs and individual patients brought a putative class
action for civil RICO fraud against the manufacturer
of the drug Zyprexa, alleging that the manufacturer
misrepresented
Zyprexa’s
side
effects
and
effectiveness to physicians and promoted Zyprexa for
off-label uses when there was no evidence that
Zyprexa was effective for off-label uses. 620 F.3d 121,
123, 129 (2d Cir. 2010). The plaintiffs alleged two
damages theories: (1) the “excess price theory”—that
they overpaid for Zyprexa prescriptions because the
manufacturer relied on its misrepresentations to
charge higher prices; and (2) the “quantity effect
theory”—that they paid for Zyprexa prescriptions
“that would not have been issued but for the alleged
misrepresentations.” Id. The district court certified a
class of TPPs based upon their excess price theory for
damages, but the Second Circuit reversed. Id. at 123,
137.
As to the proximate cause requirement under RICO,
the Second Circuit held that the plaintiffs’ injuries

26a
under both of their damages theories were too
attenuated, as they “rest[] on the independent actions
of third and even fourth parties.” Id. at 134 (quoting
Hemi Group, 559 U.S. at 15). The Second Circuit was
not persuaded by the plaintiffs’ argument that “the
ultimate source for the information on which doctors
based their prescribing decisions was [the
manufacturer] and its consistent, pervasive
marketing plan,” because the manufacturer was “not
. . . the only source of information on which doctors
based prescribing decisions.” Id. at 135 (emphasis in
original). Rather, “[a]n individual patient’s diagnosis,
past and current medications being taken by the
patient, the physician’s own experience with
prescribing Zyprexa, and the physician’s knowledge
regarding the side effects of Zyprexa are all
considerations that would have been taken into
account in addition to the alleged misrepresentations
distributed by [the manufacturer].” Id. Accordingly,
the Second Circuit held that the plaintiffs failed to
allege that their damages were proximately caused by
the drug manufacturer’s wrongful conduct and
reversed the district court’s certification order. 12 Id.
at 134, 136; see also Sergeants Benevolent Ass’n
Health & Welfare Fund v. Sanofi-Aventis U.S. LLP,
806 F.3d 71, 90–91 (2d Cir. 2015) (holding that the
12 The Second Circuit remanded, however, for the
district court to consider individual claims based upon
the plaintiffs’ quantity effect damages theory. UFCW
Local 1776, 620 F.3d at 136. The Second Circuit noted
that “while that theory cannot support class
certification, it is not clear that the theory is not viable
with respect to individual claims by some TPPs or
other [individual] purchasers.” Id.

27a
plaintiff’s RICO claims were foreclosed by UFCW
Local 1776, 620 F.3d at 121).
c. First Circuit
To the contrary, in In re Neurontin Marketing &
Sales Practices Litigation, a jury awarded Kaiser
Foundation Health Plan (“Kaiser”), a TPP, damages
for the injury it suffered in paying for off-label
Neurontin prescriptions that were induced by Pfizer’s
(the drug manufacturer) fraudulent scheme to
misrepresent Neurontin’s effectiveness for off-label
conditions. 712 F.3d 21, 25–26 (1st Cir. 2013). The
district court had found that Kaiser relied on Pfizer’s
fraudulent marketing campaign in deciding to include
Neurontin in its formulary—a list of medications its
treating physicians were authorized to prescribe. Id.
at 28–29. The district court subsequently denied
Pfizer’s motion for a new trial, and Pfizer appealed.
Id. at 27.
Pfizer argued that Kaiser could not satisfy RICO’s
proximate cause requirement as a matter of law. Id.
at 34. But the First Circuit disagreed, holding that
“Kaiser has met both the direct relationship and
functional tests articulated in Holmes and its
progeny.” Id. at 38. Unlike the Second and Seventh
Circuits, the First Circuit rejected the argument that
there were “too many steps in the causal chain
between [Pfizer’s] misrepresentations and Kaiser’s
alleged injury” to meet the “direct relation”
requirement. Id. Rather, the First Circuit held that
“the causal chain in this case is anything but
attenuated,” because Pfizer “has always known that,
because of the structure of the American health care

28a
system, physicians would not be the ones paying for
the drugs they prescribed.” Id. at 38–39. Pfizer’s
fraudulent marketing scheme, which was meant to
increase its sales and profits, “only became successful
once Pfizer received payments for the additional
Neurontin prescriptions it induced.” Id. at 39. Those
payments came from TPPs, including Kaiser. Id.
The First Circuit also rejected Pfizer’s argument
that “because doctors exercise independent medical
judgment in making decisions about prescriptions, the
actions of these doctors are independent intervening
causes” that cut off the chain of causation. Id. The
First Circuit explained that “Pfizer’s scheme relied on
the expectation that physicians would base their
prescribing decisions in part on Pfizer’s fraudulent
marketing.” Id. “The fact that some physicians may
have considered factors other than Pfizer’s detailing
materials in making their prescribing decisions does
not add such attenuation to the causal chain as to
eliminate proximate cause”; rather, “[t]his is a
damages question” about the “total number of
prescriptions that were attributable to Pfizer’s
actions.” Id. Finally, the First Circuit noted that
“[h]olding Pfizer liable will have an effect in deterring
wrongful conduct,” and thus it held that Kaiser had
satisfied the proximate cause requirement under
RICO. Id. at 39–40.
d. Third Circuit
Similarly, in In re Avandia Marketing, Sales
Practices & Product Liability Litigation, the Third
Circuit held that the TPP plaintiffs sufficiently
alleged proximate cause for their civil RICO claims.

29a
804 F.3d 633, 634 (3d Cir. 2015). There, TPPs filed a
putative class action against the defendant alleging
under RICO that the defendant misrepresented
significant heart-related safety risks associated with
the drug Avandia. Id. at 634–36. The plaintiffs alleged
that they included Avandia in their formularies and
covered it at favorable rates for their members in
reliance on the defendant’s misrepresentations about
Avandia’s safety. Id. at 636. The plaintiffs also alleged
that physicians relied on the defendant’s
misrepresentations in deciding to prescribe Avandia
and that they would have prescribed it to fewer
patients if the defendant had not concealed its safety
risks. Id. The district court held that the plaintiffs
adequately alleged that the defendant proximately
caused their damages but certified its decision for
interlocutory appeal. Id. at 637.
The Third Circuit affirmed. Applying the Supreme
Court’s direct relation requirement, the Third Circuit
held that “[t]he conduct that allegedly caused [the]
plaintiffs’ injuries is the same conduct forming the
basis of the RICO scheme alleged in the complaint—
the misrepresentation of the heart-related risks of
taking Avandia that caused TPPs . . . to place Avandia
in the formulary.” Id. at 644. Next, looking to the
Holmes factors, the Third Circuit noted that it would
not be too difficult to distinguish between the
damages attributable to the defendant’s alleged
violation from other independent factors, and that at
the pleadings stage, the question of damages was “a
question for another day.” Id. Further, the Third
Circuit observed that the plaintiffs were best situated
to sue, as the plaintiffs’ alleged injury “is an economic
injury independent of any physical injury suffered by

30a
Avandia users,” and “prescribing physicians did not
suffer RICO injury from [the defendant’s] marketing
of Avandia.” Id.
The Third Circuit, like the First Circuit, rejected the
defendant’s argument that “the presence of
intermediaries, doctors and patients, destroys
proximate cause because they were the ones who
ultimately decided whether to rely on [the
defendant’s] misrepresentations.” Id. at 645. The
Third Circuit explained that “drug manufacturers are
well aware that TPPs cover the cost of their drugs”
and the defendant’s “fraudulent scheme could have
been successful only if [the] plaintiffs paid for
Avandia, [which] is the very injury that [the] plaintiffs
seek recovery for.” Id. Thus, the plaintiffs’ alleged
injury had a direct relation to the alleged RICO
violation. Id. Therefore, the Third Circuit affirmed the
district court’s holding that the plaintiffs adequately
alleged RICO proximate cause at the pleadings stage.
Id. at 645–46.
e. Circuit Court Precedent Analysis
Although each of these four circuit court opinions
arises under similar factual scenarios, factual and
procedural distinctions exist between them. For
example, the Third and Seventh Circuits’ opinions
confronted the issue whether the plaintiffs could
satisfy the proximate cause requirement under RICO
at the pleadings stage, whereas the Second Circuit
considered the issue at the class certification stage,
and the Third Circuit reviewed the issue post-trial.
Further, while the Second, Third, and Seventh Circuit
cases involved putative class actions, the First

31a
Circuit’s opinion involved a single TPP. But these
minor factual and procedural differences do not help
us resolve the central dispute between the Second and
Seventh Circuits’ reasoning and the First and Third
Circuits’ reasoning.
Indeed, it seems the central dispute between the
Second and Seventh Circuits and the First and Third
Circuits is whether the decisions of prescribing
physicians and pharmacy benefit managers constitute
intervening causes that sever the chain of proximate
cause between the drug manufacturer and TPP. 13 We
think the First and Third Circuits have it right

13 We note that all four of our sister circuits’
opinions may support the claims by individual
patients who are plaintiffs in this case, not just the
First and Third Circuits’ opinions. In Sidney Hillman,
in holding that TPPs are too far removed from the
drug manufacturer’s alleged wrongful conduct to
satisfy the RICO proximate cause requirement, the
Seventh Circuit implied that individual patients may
be able to satisfy the proximate cause requirement, as
they are the most directly injured party whose “health
and financial costs come first in line temporally.” 873
F.3d at 576. And in UFCW Local 1776, although the
Second Circuit reversed the district court’s class
certification order because the plaintiffs could not
satisfy RICO’s proximate cause requirement as a
class, it remanded to the district court to consider in
the first instance individual plaintiffs’ claims based
upon the quantity effect damages theory. 620 F.3d at
136.

32a
because their reasoning is more consistent with the
Supreme Court’s direct relation requirement.
In this case, although prescribing physicians serve
as intermediaries between Defendants’ fraudulent
omission of Actos’s risk of causing bladder cancer and
Plaintiffs’ payments for Actos, prescribing physicians
do not constitute an intervening cause to cut off the
chain of proximate cause. An intervening cause is “a
later cause of independent origin that was not
foreseeable.” Mendez v. County of Los Angeles, 897
F.3d 1067, 1081 (9th Cir. 2018) (quoting Exxon Co. v.
Sofec, 517 U.S. 830, 837 (1996)). Here, since Actos was
a prescription drug, it was required to be prescribed
by physicians. Hence, it was perfectly foreseeable that
physicians who prescribed Actos would play a
causative role in Defendants’ alleged fraudulent
scheme to increase Actos’s revenues. Further,
“because of the structure of the American health care
system,” Defendants have always known that
“physicians would not be the ones paying for the drugs
they prescribed.” Neurontin, 712 F.3d at 38–39.
Rather, they are well aware that TPPs and individual
patients pay for the drugs. See Avandia, 804 F.3d at
645. Defendants’ alleged fraudulent marketing
scheme, which was intended to increase Actos’s sales,
“only became successful once [they] received
payments for the additional [Actos] prescriptions
[they] induced”—the very injury for which Plaintiffs
seek recovery. Neurontin, 712 F.3d at 39. This is
consistent with the Supreme Court’s requirement that
the proximate cause inquiry focus on the direct
relation between the alleged violation and alleged
injury. Hemi Group, 559 U.S. at 12.

33a
If we were to hold the opposite—that prescribing
physicians’ and pharmacy benefit managers’ decisions
constitute an intervening cause to sever the chain of
proximate cause—as the Second and Seventh Circuits
have held, drug manufacturers would be insulated
from liability for their fraudulent marketing schemes,
as they could continuously hide behind prescribing
physicians and pharmacy benefit managers. That is
not the purpose the requirement of proximate cause is
intended to serve. Proximate cause exists to “limit a
person’s responsibility for the consequences of that
person’s own acts.” Holmes, 503 U.S. at 268. Here,
Plaintiffs seek to hold Defendants liable for the
consequences of their own acts and omissions toward
Plaintiffs: the money spent by Plaintiffs to purchase
Actos.
There is also a difference between fraudulent
promotion of “off-label” uses for a prescription drug as
in Sidney Hillman, 873 F.3d at 575 and UFCW Local
1776, 620 F.3d at 127, and fraudulent failure to warn
of a drug’s known risk of causing bladder cancer, as in
this case.
It was recognized in both Sidney Hillman and
UFCW Local 1776 that the drug manufacturer’s
fraudulent promotion of a prescription drug for offlabel uses was not the only basis upon which the
prescribing physicians relied in prescribing the drug.
In Sidney Hillman, the Seventh Circuit noted that it
would be too difficult to disentangle which physicians’
prescribing decisions, if any, were influenced by the
defendants’ unlawful promotion of the prescription
drug for off-label uses. 873 F.3d at 577–78. Similarly,
in UFCW Local 1776, the Second Circuit noted that

34a
the drug manufacturer’s unlawful promotion of the
prescription drug for off-label uses was not the only
source of information upon which the prescribing
physicians based their decisions to prescribe the drug.
620 F.3d at 135.
Echoing the first factor of Holmes, the failure to
warn of the bladder cancer risk in this case makes
Plaintiffs’ damages more clearly “attributable to
[Defendants’] violation.” 503 U.S. at 269. The
damages claimed from off-label uses in Sidney
Hillman and UFCW Local 1776 are less directly
attributable to the alleged false promotions. It is much
more likely that Actos’s risk of causing a disease as
serious as bladder cancer would materially influence
prescribing physicians’ decisions whether to prescribe
Actos. Plaintiffs’ allegations confirm this theory, as
they allege that a survey conducted by Defendants in
2003 showed that 75% of surveyed physicians’ interest
in a different oral anti-diabetic drug declined “greatly”
once they learned that it carried a risk of causing
bladder cancer. Further, Plaintiffs allege that those
survey results are confirmed by their allegation that
sales of Actos decreased approximately 80% once the
FDA issued its official warning that Actos may be
linked to bladder cancer in patients who use it over a
prolonged period of time. Taking those allegations as
true, as we must, the question whether prescribing
physicians would not have been influenced by
Defendants’ alleged fraudulent omission is less
concerning in this case than it was to the Second and
Seventh Circuits.
Moreover, the Seventh Circuit’s distinction that
TPPs’ injuries are too far removed from the drug

35a
manufacturer’s fraudulent scheme to satisfy the
RICO proximate cause requirement because they are
not “the sole injured parties” and because individual
patients’ “health and financial costs come first in line
temporally” misses the mark. Sidney Hillman, 873
F.3d at 576. The Supreme Court has never made a
distinction about temporal proximity of the plaintiffs
to the damages caused to others when evaluating
whether a plaintiff has adequately alleged that the
defendant proximately caused the plaintiff’s damages
under RICO. Additionally, the fact that individual
patients and TPPs both suffered economic injuries
from a drug manufacturer’s fraudulent scheme does
not mean that one group of plaintiffs should be
favored to recover over the other, so long as they both
suffered the same economic injuries from the drug
manufacturer’s same misconduct. Finally, the
Seventh Circuit’s comment that prescribing
physicians may suffer indirect loss does not attenuate
the chain of causation so far as to break it. See id.
Even if prescribing physicians suffer an indirect loss
such as reputational harm for prescribing an
ineffective or unsafe drug, they are not out of pocket
for the price of the drug and thus do not suffer the
same economic loss as do individual patients and
TPPs. For these reasons, we agree with the First and
Third Circuits that Plaintiffs’ damages are not too far
removed from Defendants’ alleged omissions and
misrepresentations to satisfy RICO’s proximate cause
requirement.
3. Reliance
As a threshold matter, any argument that Patients
have not alleged that they relied on Defendants’

36a
misrepresentations and omissions lacks merit. Each
patient alleged that had he “known that Actos
increased the risk of causing bladder cancer, he would
never have purchased and ingested the drug.”
Additionally, Patients alleged that they “relied on
Defendants’ . . . misrepresentations of Actos’[s] safety
in purchasing the drug.” These statements are
sufficient to allege that Patients relied on Defendants’
misrepresentations.
Next, the Supreme Court has explained that if there
is a direct relationship between a defendant’s
wrongful conduct and a plaintiff’s alleged injury, a
RICO plaintiff who did not directly rely on the
defendant’s omission or misrepresentation can still
satisfy the requirement of proximate causation of
damages. Recall that in Bridge the defendants’
misrepresentations that they complied with the
county’s “Single, Simultaneous Bidder Rule” were
made to the tax lien selling county, not to the plaintiff
tax lien buyers. 553 U.S. at 648. But the Supreme
Court held that it was sufficient to establish
proximate cause between the defendants’ alleged
wrongful conduct and the plaintiffs’ alleged injury
that the county had relied on the defendants’ false
attestations. See id. at 658–59. What mattered most
in the RICO proximate causation inquiry was whether
there was a direct relationship between the alleged
RICO violation and the plaintiffs’ alleged injury. See
id. And there was. The plaintiffs’ “alleged injury—the
loss of valuable [tax] liens—[was] the direct result of
. . . [the defendants’] scheme to obtain more liens for
themselves.” Id. at 658.

37a
In so holding, the Supreme Court expressly rejected
the defendants’ argument that “[direct] reliance is an
element of a civil RICO claim predicated on mail
fraud.” 553 U.S. at 646–49. The Supreme Court
explained that the civil RICO statute has no reliance
requirement on its face, and a person may be injured
“by reason of” another person’s fraud even if the
injured party did not rely on any misrepresentation.
Id. at 648–49. Nonetheless, the Supreme Court noted
that it “may well be that a RICO plaintiff alleging
injury by reason of a pattern of mail fraud must
establish at least [indirect] reliance in order to prove
causation.” 553 U.S. at 658–59. This is because,
logically, a plaintiff cannot even establish but-for
causation if no one relied on the defendant’s alleged
misrepresentation. Id.
Despite this precedent, Defendants argue that
Painters Fund failed to allege reliance on Defendants’
omissions of Actos’s bladder cancer risk, since
Painters Fund expressly alleged that, as a TPP, it
“relies on [its] members and their prescribers to make
informed decisions about which drugs will be
prescribed and, in turn, submitted to Plaintiff
Painters Fund for reimbursement.” This argument is
also meritless. Like in Bridge, where it was sufficient
to satisfy RICO’s proximate cause requirement that
the county (a third party) had relied on the
defendants’ false attestations, here, it is sufficient to
satisfy RICO’s proximate cause requirement that
Painters Fund alleged that prescribing physicians
(also third parties, but not intervening causes) relied
on Defendants’ misrepresentations and omissions.

38a
Finally, Defendants argue that even if Painter’s
Fund has alleged indirect reliance, its general
allegations of indirect reliance—i.e., that prescribing
physicians relied on Defendants’ misrepresentations
and omissions in prescribing Actos for their patients,
which Painters Fund then reimbursed—are
insufficient, because Painters Fund should have
alleged with specificity exactly which prescribing
physicians were misled by Defendants’ alleged
misrepresentations. Remembering that this case is
before us at the pleadings stage and without the
benefit of discovery, we recognize that it would be
difficult for Painters Fund to determine with
specificity exactly which doctors relied on Defendants’
alleged misrepresentations. All that is required of
Painters Fund at this stage is to allege that someone
in the chain of causation relied on Defendants’ alleged
misrepresentations and omissions, which it has done
here. Thus, we hold that Plaintiffs have adequately
alleged the reliance necessary to satisfy RICO’s
proximate cause requirement.
III. CONCLUSION
While we express no opinion on Plaintiffs’ chances of
success in this litigation as it proceeds, we hold that
Plaintiffs have satisfactorily alleged that Defendants
proximately caused their claimed damages at the
pleadings stage. We reverse the district court’s
judgment dismissing Plaintiffs’ RICO claims under
Rule 12(b)(6) for lack of RICO standing, and we
remand to the district court for further proceedings
consistent with this disposition.

39a
APPENDIX B

FILED
DEC 3 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAINTERS AND ALLIED
TRADES DISTRICT COUNCIL
82 HEALTH CARE FUND,
third-party healthcare payor
fund; et al.,
Plaintiffs-Appellants,

No. 18-55588
D.C. No. 2:17-cv07223-SVW-AS

MEMORANDUM †*

v.
TAKEDA
PHARMACEUTICALS
COMPANY LIMITED, a
Japanese Corporation; et al.,
Defendants-Appellees.
* This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.

40a
Appeal from the United States District Court
for the Central District of California
Stephen V. Wilson, District Judge, Presiding
Argued and Submitted June 6, 2019
Seattle, Washington
Before: BEA, NGUYEN, and WATFORD **, Circuit
Judges.
Plaintiffs, individual patients and third-party payor
Painters and Allied Trades District Council 82 Health
Care Fund, appeal the district court’s orders
dismissing their civil claims under the Racketeer
Influenced and Corrupt Organizations Act (“RICO”)
for failure to allege sufficiently proximate cause and
their state-law consumer protection claims for related
reasons.
1. We address Plaintiffs’ civil RICO proximate cause
arguments in a separate opinion filed simultaneously
with this memorandum disposition, and we reverse
the district court’s holding that Plaintiffs failed
sufficiently to allege Defendants’ actions and
omissions were the proximate cause of their damages
under RICO. 1
** Judge Watford was drawn to replace Judge
Rawlinson. Judge Watford has read the briefs,
reviewed the record, and watched the recording of oral
argument held on June 6, 2019.
1 We reject Defendants’ argument that Plaintiffs
lack Article III standing for failure to allege an injury
in fact. We have held in the consumer fraud context

41a
2. California Claims: Plaintiff Snyder alleges that
Defendants—Takeda Pharmaceuticals Co., Takeda
Pharmaceuticals USA, and Eli Lilly & Co.—violated
the California Consumer Legal Remedies Act,
California’s Unfair Competition Law, and California’s
False Advertising Law. See Cal. Civ. Code § 1750; Cal.
Bus. & Prof. Code §§ 17200, 17500. Each of these
claims requires Snyder to plead economic injury,
causation, and reliance. Veera v. Banana Republic,
LLC, 211 Cal. Rptr. 3d 769, 776 (Ct. App. 2016). The
district court held that Snyder failed to meet the
pleading standard under Federal Rule of Civil
Procedure 8 for reliance. But the district court ignored
Snyder’s specific allegations in the complaint: that (1)
that where plaintiffs contend that they bought a
product “when they otherwise would not have done so,
because [Defendants] made deceptive claims and
failed to disclose [known risks] . . . they have suffered
an ‘injury in fact’” sufficient to support Article III
standing. Mazza v. Am. Honda Motor Co., 666 F.3d
581, 595 (9th Cir. 2012). Here, Plaintiffs alleged that
they purchased Actos, which they would not have
done absent Defendants’ fraudulent scheme to conceal
Actos’s risk of bladder cancer. Thus, Plaintiffs have
alleged an injury in fact sufficient to support Article
III standing.
The district court did not address Defendants’ other
alternative arguments applicable to Plaintiffs’ RICO
claims or the separate arguments that Defendant Eli
Lilly raises in its answering brief regarding Plaintiffs’
RICO and state law claims. We decline to address
them in the first instance on appeal; the district court
may address those issues on remand.

42a
she was prescribed a 15 mg daily dose of Actos, (2) that
prior to taking her prescription, she “read and relied
upon the Actos label,” (3) that information about
Actos’s risk of causing bladder cancer “is information
that a reasonable consumer and prescriber would
consider important in making a purchasing and
prescribing decision,” and (4) that had she known that
Actos increased the risk of developing bladder cancer,
“she would never have purchased and ingested the
drug.” These allegations, if true, plausibly state a
claim
that
Snyder
relied
on
Defendants’
misrepresentation, which caused her to purchase a
drug that she otherwise would not have bought. See
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Therefore,
we reverse the district court’s holding that Snyder
failed to allege reliance properly.
3. New Jersey Claim: Plaintiff Cardarelli alleges
that Defendants violated the New Jersey Consumer
Fraud Act (“NJCFA”). 2 See N.J. Stat. Ann. § 56:8-1.
The NJCFA has a similar proximate cause
requirement to that required for civil RICO claims.
See Dist. 1199P Health & Welfare Plan v. Janssen,
L.P., 784 F. Supp. 2d 508, 530–31 (D.N.J. 2011); In re
Schering-Plough Corp. Intron/Temodar Consumer
Class Action, No. 2:06-CV-5774 (SRC), 2009 WL
2043604, at *31 (D.N.J. July 10, 2009). Because we
2 We reject Defendants’ argument that Plaintiffs
waived their New Jersey, Florida, Missouri, and
Minnesota claims for failure to raise them in district
court. Plaintiffs raised their state law claims in their
complaint and responded to Defendants’ arguments
about their state law claims in their opposition to
Defendants’ motion to dismiss.

43a
conclude in the simultaneously filed opinion that
Plaintiffs have adequately alleged their damages were
proximately caused for their civil RICO claims, we
likewise hold that Cardarelli has adequately alleged
proximate cause for his New Jersey claim. Therefore,
we reverse the district court’s dismissal of Cardarelli’s
New Jersey claim for failure to allege proximate
cause.
4. Florida Claim: The district court dismissed
Plaintiff Buckner’s claim under the Florida Deceptive
and Unfair Trade Practices Act (“FDUTPA”) for
failure to plead damages. 3 See Fla. Stat. § 501.201.
But an allegation that the plaintiff “would not have
bought” a product “if he had known the product was
not safe for human consumption . . . satisfies the
damages element of a FDUTPA claim.” Jovine v.
Abbott Labs., Inc., 795 F. Supp. 2d 1331, 1344 (S.D.
Fla. 2011). Here, Buckner alleges that Defendants
fraudulently concealed Actos’s risk of causing bladder
cancer, and that Buckner would not have purchased
Actos if she had known about Actos’s risk of causing
3 In dismissing Buckner’s Florida claim, the district
court cited a Florida case that held that damages
based on “price inflation” are “too speculative.” See
Prohias v. Pfizer, Inc., 485 F. Supp. 2d 1329, 1336
(S.D. Fla. 2007). But Plaintiffs have abandoned their
excess price damages theory that Florida has rejected
on appeal. Instead, Plaintiffs pursue their quantity
effect damages theory, that they “pa[id] for more
prescriptions for Actos than would have otherwise
occurred absent the RICO violations.” As explained
above, Florida law supports Plaintiffs’ second theory
of damages.

44a
bladder cancer. Accordingly, we reverse the district
court’s holding that Buckner failed to plead damages
in her FDUTPA claim. 4
5. Missouri Claim: Plaintiff Rose alleges that
Defendants violated the Missouri Merchandising
Practices Act (“MMPA”). See Mo. Rev. Stat. § 407.010.
Under the MMPA, plaintiffs must plead an
“ascertainable loss” that “was the result of an unfair
practice.” Thompson v. Allergan USA, Inc., 993 F.
Supp. 2d 1007, 1011–12 (E.D. Mo. 2014). Missouri
courts measure an “ascertainable loss” under the
“benefit-of-the-bargain” rule, which “awards a
prevailing party the difference between the value of
the product as represented and the actual value of the
product as received.” Id. at 1012; see also Plubell v.
Merck & Co., 289 S.W.3d 707, 715 (Mo. Ct. App. 2009).
This is similar to Plaintiffs’ excess price damages
theory, which they expressly abandoned on appeal.
Thus, we affirm the district court’s dismissal of
Plaintiff Rose’s MMPA claim.
6. Minnesota Claim: Plaintiffs argue that Takeda
violated Minnesota Statutes §§ 325F.69(1), 325D.13,
4 Defendants also argue that Buckner’s FDUTPA
claim fails under Florida’s “safe harbor” provision,
which provides that the FDUTPA “does not apply to .
. . [a]n act or practice . . . specifically permitted by
federal or state law.” Fla. Stat. § 501.212(1). But
Plaintiffs allege that Defendants’ actions violated
federal civil RICO and drug labeling laws. Because we
must assume Plaintiffs’ allegations are true, Bain v.
California Teachers Association, 891 F.3d 1206, 1211
(9th Cir. 2018), Defendants are not covered by
Florida’s “safe harbor” provision.

45a
which address consumer fraud. Plaintiffs may assert
violations of these statutes only if they seek a “public
benefit.” Minn. Stat. § 8.31(1); Ill. Farmers Ins. Co. v.
Guthman, No. CV 17-270(RHK/SER), 2017 WL
3971867, at *3 (D. Minn. Sept. 7, 2017).
Plaintiffs do not seek a public benefit, as they ask
only for damages (rather than injunctive relief), and
they seek to remedy a past harm (rather than an
ongoing harm). Buetow v. A.L.S. Enters. Inc., 888 F.
Supp. 2d 956, 961 (D. Minn. 2012); Select Comfort
Corp. v. Sleep Better Store, LLC, 796 F. Supp. 2d 981,
986 (D. Minn. 2011). We affirm the district court’s
dismissal of Plaintiffs’ Minnesota claim.
In sum, we REVERSE the district court’s dismissal
of Plaintiffs’ RICO claims for lack of proximate cause.
And we REVERSE the district court’s dismissal of
Plaintiffs’ California, New Jersey, and Florida claims.
But we AFFIRM the district court’s dismissal of
Plaintiffs’ Missouri and Minnesota claims. We
remand to the district court for further proceedings
consistent with this disposition. Each party shall bear
its own costs on appeal.

46a
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.
2:17-cv07223-SVW-AS

Date April 3, 2018

Title Painters and Allied Trades District Council
82 Health Care Fund et al v. Takeda
Present: The Honorable STEPHEN V. WILSON,
U.S. DISTRICT JUDGE
Paul M. Cruz

N/A

Deputy Clerk

Court Reporter /
Recorder

Attorneys Present for
Plaintiffs:

Attorneys Present for
Defendants:

N/A

N/A

Proceedings: IN CHAMBERS ORDER
GRANTING MOTION TO
DISMISS [119]
I. Introduction
The Court previously dismissed Plaintiffs’ RICO
claims with prejudice. Dkt. 140. The Court
simultaneously issued an order to show cause
regarding whether it maintained jurisdiction over the

47a
remaining claims. Id. Having considered the parties’
briefs on this issue, the Court is satisfied that it
retains jurisdiction over this matter pursuant to
CAFA, and DISMISSES Plaintiffs’ state law claims.
Accordingly, the Court need not consider Plaintiffs’
motion to sever.
The Court also declines to strike Defendants’
supplementary briefing. Dkt. 141. However, the Court
cautions Defendant against abusing supplementary
briefing to expand it beyond the scope of what was
intended.
II. Legal Standard
A motion to dismiss under Rule 12(b)(6) challenges
the legal sufficiency of the claims stated in the
complaint. See Fed. R. Civ. Proc. 12(b)(6). To survive
a motion to dismiss, the plaintiff’s complaint “must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Iqbal, 556 U.S. at
678. A complaint that offers mere “labels and
conclusions” or “a formulaic recitation of the elements
of a cause of action will not do.” Id.; see also Moss v.
U.S. Secret Service, 572 F.3d 962, 969 (9th Cir. 2009)
(citing Iqbal, 556 U.S. at 678).
In reviewing a Rule 12(b)(6) motion, a court “must
accept as true all factual allegations in the complaint

48a
and draw all reasonable inferences in favor of the
nonmoving party.” Retail Prop. Trust v. United Bhd.
of Carpenters & Joiners of Am., 768 F.3d 938, 945 (9th
Cir. 2014). Thus, “[w]hile legal conclusions can
provide the complaint’s framework, they must be
supported by factual allegations. When there are
well-pleaded factual allegations, a court should
assume their veracity and then determine whether
they plausibly give rise to an entitlement to relief.”
Iqbal, 556 U.S. at 679.
III. Discussion
In its previous order, the Court dismissed the RICO
claims on proximate causation grounds. Plaintiffs
additionally bring claims under the consumer
protection laws of various states. As explained below,
many of the same considerations applicable in the
RICO context mean that Plaintiffs’ state law claims
fail as well. To briefly summarize, Plaintiffs’ claims
are entirely based on the theory that they paid more
for Actos than they otherwise would have, had they
known about the increased risk of bladder cancer. In
other words, they allege that Defendants were able to
inflate the price of Actos by concealing the cancer risk.
All of Plaintiffs’ state law claims fail because they
have not alleged reliance (California), because this
damages theory has been rejected by the relevant
courts (Florida, New Jersey, Massachusetts,
Missouri), or because the statutes at issue are meant
to be enforced by the state, not private citizens
(Minnesota).

49a
1. California
Plaintiffs bring claims under the California
Consumer Legal Remedies Act, the Unfair
Competition Law, and False Advertising Law. All of
these claims require Plaintiffs to plead economic
injury, causation, and reliance. Wilson v. Frito-Lay N.
Am., Inc., 260 F. Supp. 3d 1202 (N.D. Cal. 2017) (“To
prevail on their causes of action under the UCL, FAL,
and the CLRA, Plaintiffs must demonstrate that they
actually relied on the challenged misrepresentations
and suffered economic injury as a result of that
reliance. To do so, they ‘must show that the
misrepresentation was an immediate cause of the
injury-producing conduct.’”).
With regard to reliance, Plaintiffs’ complaint simply
states “Plaintiff Snyder and the California Consumer
Class
reasonably
relied
upon
Defendants’
misrepresentations regarding Actos in deciding
whether to purchase and use the drug.” SAC ¶273.
Such a conclusory allegation is insufficient. Plaintiff
Snyder does not even specifically allege that she or her
physician was actually exposed to Defendants’
fraudulent promotion of Actos. As recognized by the
Actimmune court (which dismissed RICO claims as
well as California state law claims) without specific
allegations of reliance on the part of Plaintiff or her
doctor, the claim cannot survive. In re Actimmune
Mktg. Litig., No. C 08-02376 MHP, 2010 WL 3463491,
at *10 (N.D. Cal. Sept. 1, 2010), aff’d, 464 F. App’x 651
(9th Cir. 2011). Accordingly, these claims are
DISMISSED WITHOUT PREJUDICE.

50a
2. Missouri
This Count is brought pursuant to the Missouri
Merchandising Practices Act (MMPA), §§ 407.010, et
seq. This act states that the “use or employment by
any person of any deception, fraud, false pretense,
false promise, misrepresentation, unfair practice or
the concealment, suppression, or omission of any
material fact in connection with the sale or
advertisement of any merchandise in trade or
commerce ... in or from the state of Missouri, is
declared to be an unlawful practice. ... Any act, use or
employment declared unlawful by this subsection
violates this subsection whether committed before,
during or after the sale, advertisement or
solicitation.”
The MMPA requires Plaintiffs to plead an
“ascertainable loss” that “was the result of an unfair
practice.” Thompson v. Allergan USA, Inc., 993 F.
Supp. 2d 1007, 1011 (E.D. Mo. 2014). In determining
what qualifies as an “ascertainable loss” courts apply
the “benefit of the bargain” rule. Id. If a plaintiff fail[s]
to allege that she did not receive the benefit of the
medication for which she bargained” or where the
drug performed as purported there is no ascertainable
loss. Id.; see also Carter v. Alcon Labs., Inc., No.
4:13CV00977 AGF, 2014 WL 989002, at *4 (E.D. Mo.
Mar. 13, 2014). Because Plaintiffs here received the
benefits of Actos and did not suffer from bladder
cancer, they fail to state a claim under the MMPA.
Additionally, claims that drug prices were inflated
due to misrepresentations by the drug manufacturers
are not viable under the MMPA. Drug pricing is

51a
complex and under Missouri law “courts are not
regulators of the fair market price of products.”
Thompson, 993 F. Supp. 2d at 1013. The Missouri
claims
are
therefore
DISMISSED
WITH
PREJUDICE.
3. New Jersey
Plaintiffs bring claims under the New Jersey
Consumer Fraud Act (“NJCFA”), N.J.S.A. 56:8-1 et
seq. N.J.S.A. 56:8-2 provides:
The act, use or employment by any
person
of
any
unconscionable
commercial practice, deception, fraud,
false
pretense,
false
promise,
misrepresentation, or the knowing,
concealment, suppression, or omission of
any material fact ... Whether or not any
person has in fact been misled, deceived
or damaged thereby, is declared to be an
unlawful practice.
This statute has a proximate cause requirement
that is similar to that required by RICO. In re
Schering-Plough Corp. Intron/Temodar Consumer
Class Action, No. 2:06-CV-5774(SRC), 2009 WL
2043604, at *31 (D.N.J. July 10, 2009). Thus,
Plaintiffs’ New Jersey state law claims fail for the
same reasons their RICO claims failed. New Jersey
courts have repeatedly rejected similar claims in the
pharmaceutical context under this law. See, e.g., Int’l
Union of Operating Eng’rs Local No. 68 Welfare Fund
v. Merck & Co., 929 A.2d 1076, 1088 (N.J. 2007) (“[T]o
the extent that plaintiff seeks to prove only that the

52a
price charged for Vioxx was higher than it should have
been as a result of defendant ‘s fraudulent marketing
campaign ... the theory must fail.”); New Jersey
Citizen Action v. Schering-Plough Corp., 842 A.2d 174,
178 (N.J. Super. Ct. App. Div. 2003) (same). This
claim is therefore DISMISSED WITH PREJUDICE.
4. Florida
Plaintiffs bring claims pursuant to the Florida
Deceptive and Unfair Trade Practices Act, Fla. Stat.
§§ 501.201, et seq. (“FDUTPA”). To adequately plead
a claim under this act, “[a]ctual damages...must
directly flow from the alleged deceptive act” and
“causation must be direct, rather than remote or
speculative.” Hennegan Co. v. Arriola, 855 F. Supp. 2d
1354, 1361 (S.D. Fla. 2012).
As with the other claims, Plaintiffs allege that they
paid more money for Actos than they otherwise would
have because of the undisclosed risk of bladder cancer.
However, Courts have squarely rejected this damages
theory under Florida law. Prohias v. Pfizer, Inc., 485
F. Supp. 2d 1329, 1336 (S.D. Fla. 2007) (“[T]hey allege
‘price inflation’ damages. But, in the context of a
market for a pharmaceutical drug, such damages are
too speculative to constitute an injury-in-fact under
Article III.”) Accordingly, these claims are
DISMISSED WITH PREJUDICE.
5. Minnesota
Plaintiffs bring claims under Minnesota Statutes,
sections 325F.69, subd. 1 and 325D.13. Minnesota
Statute § 325F.69, subd. 1 makes it unlawful for any

53a
person by use of “any fraud, false pretense, false
promise, misrepresentation, misleading statement or
deceptive practice, with the intent that others rely
thereon in connection with the sale of any
merchandise, whether or not any person has in fact
been misled, deceived, or damaged thereby[.]”
Minnesota Statute § 325D.13 provides that, “ [n]o
person shall, in connection with the sale of
merchandise, knowingly misrepresent, directly or
indirectly, the true quality, ingredients or origin of
such merchandise.”
Generally, only the Attorney General has the
authority to seek enforcement of these statutes, but a
private plaintiff can enforce them as a “private
attorney general.” Illinois Farmers Ins. Co. v.
Guthman, No. CV 17-270(RHK/SER), 2017 WL
3971867, at *3 (D. Minn. Sept. 7, 2017). In order to do
so, however, plaintiffs must allege that enforcement of
the statute will result in a “public benefit.” Id.
Plaintiffs have not alleged anywhere in their
complaint that the Minnesota claim will result in a
public benefit. Indeed, they seek only damages, and a
public benefit generally does not exist when plaintiffs
seek only damages. “This is because individual
damages, generally speaking, merely enrich (or
reimburse) the plaintiff to the defendant’s detriment;
they do not advance the public interest.” Select
Comfort Corp. v. Tempur Sealy Int’l, Inc., 11 F. Supp.
3d 933, 937-39 (D. Minn. 2014). These claims are
DISMISSED WITHOUT PREJUDICE.

54a
6. Massachusetts
Plaintiffs bring claims under Massachusetts’s
Consumer Protection Act, Mass. Gen. Laws ch. 93A,
§§ 1, et seq. SAC¶ 350. This Act generally forbids
unfair methods of competition and unfair or deceptive
acts or practices in the conduct of any trade or
commerce. Unfair acts or practices include practices
that are within at least the penumbra of some
common-law, statutory, or other established concept
of unfairness; immoral, unethical, oppressive, or
unscrupulous acts; or acts that cause substantial
injury. Deceptive acts or practices include those that
would reasonably cause a person to act differently
from the way he or she otherwise would have acted.
To adequately plead a claim under Ch. 93A, a
Plaintiff must allege “economic injury in the
traditional sense.” Rule v. Fort Dodge Animal Health,
Inc., 607 F.3d 250, 255 (1st Cir. 2010) (discussing
Massachusetts state law). However, Plaintiffs’
damages theory does not qualify as “economic injury
in the traditional sense.” When the purchaser of a
drug alleges fraudulent non-disclosure of a risk, they
suffer no economic injury when they use the drug and
the undisclosed risk does not manifest itself. Id. at
253. This is true even if a Plaintiff alleges that he or
she would have paid less for the drug if aware of the
risk. Id. They can accordingly state no claim under
Ch. 93A. Here it is undisputed that Plaintiffs did not
contract bladder cancer as a result of using Actos.
Plaintiffs who did suffer from cancer had their claims
heard as part of the multi-district litigation. The
instant Plaintiffs claim only that they overpaid for

55a
Actos. The claims under Ch. 93A are therefore
DISMISSED WITH PREJUDICE.
IV. Conclusion
Plaintiffs’ state law claims are all DISMISSED. IT
IS SO ORDERED.
Initials of Preparer
PMC

56a
APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.
2:17-cv07223-SVW-AS

Date February 1,
2018

Title Painters and Allied Trades District Council
82 Health Care Fund et al v. Takeda
Present: The Honorable STEPHEN V. WILSON,
U.S. DISTRICT JUDGE
Paul M. Cruz

N/A

Deputy Clerk

Court Reporter /
Recorder

Attorneys Present for
Plaintiffs:

Attorneys Present for
Defendants:

N/A

N/A

Proceedings: IN CHAMBERS ORDER
PARTIALLY GRANTING
MOTION TO DISMISS [119]
Pending before the Court is Defendant Takeda
Pharmaceutical’s (“Takeda”) and Defendant Eli Lilly

57a
& Co.’s (“Lilly”) motion to dismiss. Dkt 119. 1 For the
reasons explained below, Defendants’ motion to
dismiss is partially GRANTED.
The subject of this motion–namely the RICO
proximate causation issue–has been discussed at
length in numerous trial court and appellate court
opinions in this Circuit 2 and others. 3 The facts before
this Court do not differ materially from those cases.
This Court finds persuasive Judge Easterbrook’s
1 Also pending before the Court is Plaintiff Painters
& Allied Trades District Council 82 Health Care
Fund’s (“Painters”) motion for summary judgment.
Dkt. 88. The Court has not yet ruled on this motion.
2 See, e.g., United Food & Commercial Workers
Cent. Pennsylvania & Reg’l Health & Welfare Fund v.
Amgen, Inc., 400 F. App’x 255, 257 (9th Cir. 2010); In
re Bextra and Celebrex Mktg. Sales Practices & Prods.
Liab. Litig., MDL No. 1699, 2012 WL 3154957, at *26 (N.D. Cal. Aug. 2, 2012) (Breyer, J.); In re
Actimmune Mktg. Litig., 614 F. Supp. 2d 1037, 1051
(N.D. Cal. 2009), aff’d, 464 F. App’x 651 (9th Cir.
2011).
3 See, e.g., Sidney Hillman Health Ctr. of Rochester
v. Abbott Labs., 873 F.3d 574, 578 (7th Cir. 2017)
(Easterbrook, J.); In re Yasmin and Yaz
(Drospirenone) Mktg. Sales Practices &Prods Liab.
Litig., MDL No. 2100, 2010 WL 3119499, at *7 (S.D.
Ill. Aug. 5, 2010); contra In re Avandia Mktg., Sales
Practices & Prod. Liab. Litig., 804 F.3d 633 (3d Cir.
2015); In re Neurontin Mktg. & Sales Practices Litig.,
712 F.3d 60 (1st Cir. 2013) .

58a
reasoning in his opinion for the Seventh Circuit in a
highly similar case. Sidney Hillman Health Ctr. of
Rochester v. Abbott Labs., 873 F.3d 574, 578 (7th Cir.
2017) (Easterbrook, J.). 4 Judge Breyer’s opinion
(again in a case virtually identical to this) also offers
valuable guidance. In re Bextra and Celebrex Mktg.
Sales Practices & Prods. Liab. Litig., MDL No. 1699,
2012 WL 3154957, at *2-6 (N.D. Cal. Aug. 2, 2012)
(Breyer, J.) 5 This Court adopts the reasoning of
Judges Breyer and Easterbrook, and accordingly the
RICO claims are DISMISSED WITH PREJUDICE. 6
In light of this, the Court has some doubts regarding
whether it maintains jurisdiction over this action.
Accordingly, the parties are ORDERED TO SHOW
CAUSE why this Court retains jurisdiction. The
parties will file simultaneous briefs (not to exceed 10
pages) within 14 days.
IT IS SO ORDERED.
4 In his opinion, Judge Easterbrook cited several
Unpublished Ninth Circuit opinions, which adds to
the persuasive force of his reasoning.
5 The Court acknowledges the contrary opinions
from the First and Third Circuits, but does not find
the reasoning in those opinions persuasive.
6 A “district court’s discretion to deny leave to
amend is particularly broad where, as here, the
plaintiff has previously filed an amended complaint.”
United Food & Commercial Workers Cent.
Pennsylvania & Reg’l Health & Welfare Fund v.
Amgen, Inc., 400 F. App’x 255, 258 (9th Cir. 2010).

59a

Initials of Preparer
PMC

